                        ort




  INTERNAL CONTROLS AND COMPLIANCE WITH LAWS AND
 REGULATIONS FOR THE FY 1997 FINANCIAL STATEMENTS OF
 THE DEFENSE LOGISTICS AGENCY WORKING CAPITAL FUND



Report Number 98- 148                          June 5, 1998




              Offke of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit tbe Inspector
  General, DOD, Home Page at: W%W.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                    OAIG-AUD (ATTN: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arhngton, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

DBOF                Defense Business Operations Fund
DFAS                Defense Finance and Accounting Service
DLA                 Defense Logistics Agency
FFMIA               Federal Financial Management Improvement Act
IG                  Inspector General
                    Office of Management and Budget
:%!SGL              U.S. Government Standard General Ledger
WCF                 Working Capital Fund
                              INSPECTOR    GENERAL
                             DEPARTMENT DF DEFENSE
                               400 AFWY NAVY DRIVE
                             ARLINGTON. VIRGINIA 22202




                                                                           June 5, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                 AND CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Audit Report on Internal Controls and Compliance With Laws and
         Regulations for the FY 1997 Financial Statements of the Defense Logistics
         Agency Working Capital Fund (Report No. 98-148)


        We are providing this final report for information and use. Because this report
contains no recommendations, written comments are not required, and none were
received. The Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994, requires financial statement audits by the
Inspectors General and prescribes the responsibilities of management and the auditors
for the financial statements, internal controls. and compliance with laws and
regulations. The Office of Management and Budget Bulletin No. 93-06, “Audit
Requirements for Federal Financial Statements, n requires the Inspector General, DOD,
to render an opinion on financial statements such as those of the Defense Logistics
Agency, and to report on the adequacy of internal controls and compliance with laws
and regulations.

        On February 27, 1998, we issued a disclaimer of opinion on the FYs 1997 and
1996 Financial Statements of the Defense Logistics Agency Working Capital Fund.
We identified internal control weaknesses and instances of noncompliance with laws
and regulations that merit management’s attention_ Part I includes separate sections on
internal controls and compliance with laws and regulations. Part II provides relevant
appendixes for management’s use. Appendix C includes the FY 1997 Financial
Statements of the Defense Logistics Agency Working Capital Fund and our disclaimer
of opinion.

        We appreciate the courtesies extended to the audit staff. Questions on the
audit should be directed to Mr. James L. Komides, Audit Program Director, at
(614) 751-1400, extension 11, e-mail jkomides@DODIG.OSD.MIL,           or Mr. Timothy
F. Soltis, Audit Project Manager, at (614) 751-1400, extension 13, e-mail
tsoltis@DODIG.OSD.MIL.       If management requests, we will provide a formal briefing
on the audit results. See Appendix F for the report distribution. A list of audit team
members is inside the back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                         Office of the Inspector General, DOD

Report No. 98-148                                                           June 5,1998
  (Project No. 8FJ-2002.03)

             Internal Controls and Compliance With Laws and
             Regulations for the FY 1997 Financial Statements
          of the Defense Logistics Agency Working Capital Fund

                                Executive Summary

Introduction. This audit was performed as part of our effort to meet the requirements
of Public Law 101-576, the “Chief Financial Officers Act of 1990,” as amended by
Public Law 103-356, the “Federal Financial Management Act of 1994.” The
legislation requires financial statement audits by the Inspectors General and prescribes
the responsibilities of management and the auditors for the financial statements. The
Defense Logistics Agency @LA) and the Defense Finance and Accounting Service are
responsible for establishing and maintaining adequate internal controls and for
complying with laws and regulations that govern DLA financial accounting and
reporting. Our responsibility is to render an opinion on the financial statements based
on our work, and to determine whether internal controls were adequate and whether
management complied with applicable laws and regulations.

Before FY 1991, the DOD operated a significant number of commercial and industrial
facilities under a revolving fund concept. In FY 1991, the revolving funds were
consolidated to form the Defense Business Operations Fund. The Inspector General,
DOD, was responsible for auditing and rendering an opinion on the Defense Business
Operations Fund Consolidated Financial Statements. In December 1996, the Under
Secretary of Defense (Comptroller) began a process that restructured the Defense
Business Operations Fund into eight separate working capital funds. The DLA
Working Capital Fund was created when the Defense Business Operations Fund was
restructured.

Audit Objectives. The overall objective of our audit was to determine whether the
FY 1997 Financial Statements of the DLA Working Capital Fund were presented fairly
and in accordance with Office of Management and Budget Bulletin No. 94-01, “Form
and Content of Agency Financial Statements, * November 16, 1993, as modified by
Office of Management and Budget Bulletin No. 97-01, “Form and Content of Agency
Financial Statements,” October 16, 1996. We also assessed internal controls and
compliance with laws and regulations.

Disclaimer of Opinion. We were unable to render an opinion on the FYs 1997 and
1996 Financial Statements of the DLA Working Capital Fund because we did not
perform sufficient work and because our limited work disclosed additional scope
limitations. We did not receive a complete set of financial statements in sufficient time
to completely perform our audit; therefore, we could not consider that information in
attempting to render an opinion. We also had difficulty in gaining access to financial
data in the DLA automated systems (See Appendix A). Additionally, because of
significant deficiencies in the accounting systems and internal controls, we were unable
to verify the $9.8 billion inventory balance on the FY 1997 financial statements.

We also did not review the FY 1996 comparative data presented on the FY 1997
Financial Statements of the DLA Working Capital Fund. We did not render an opinion
on the FY 1996 Financial Statements of the DLA Defense Business Operations Fund
because they were not presented as separate statements in FY 1996; instead, they were
consolidated with other Defense Business Operations Fund activities.

Our audit work indicated that accounting systems were not in compliance with
accounting standards. We also identified significant deficiencies in internal controls
over inventory valuation and presentation; inventory record accuracy; inventory
adjustments; Fund Balance With Treasury; and Property, Plant, and Equipment.

Internal Controls. Internal controls were not adequate to ensure the accurate reporting
of inventory accounts on the financial statements. As a result, the inventory reported
on the FY 1997 Financial Statements of the DLA Working Capital Fund, which totaled
$9.8 billion, was not properly valued, described, and disclosed.

We followed up on previously identified internal control deficiencies in Fund Balance
With Treasury and Property, Plant, and Equipment. These deficiencies had been
identified in prior reports issued by the Inspector General, DOD. Part I.A. is our
report on internal controls.

Compliance With Laws and Regulations. Part I.B. is our report on compliance with
laws and regulations. Because of our liiited scope, we could not determine the range
and magnitude of noncompliance with laws and regulations that may have affected the
reliability of the FY 1997 Financial Statements of the DLA Working Capital Fund.
However, we identified instances of noncompliance with:

        l   DOD 7000.14-R, the “DOD Financial Management Regulation,” for
            accounting systems;

        l   Statement of Federal Financial Accounting Standards No. 3 for inventory
            valuation and classification; and

        l   Military Standard Requisitioning and Issue Procedures for materiel returns.




                                            ii
Table of Contents

Executive Summary                                                i

Part I - Audit Results
      Audit Background                                          2
      Audit Objectives                                          3

Part I. A. - Review of Internal Controls
      Introduction                                               6
      Reportable Conditions                                      7
      Followup on Prior Audits                                  10

Part I. B. - Review of Compliance With Laws and Regulations
      Introduction                                              12
      Reportable Conditions                                     12

Part II - Additional Information
      Appendix A. Audit Process
        scope
        Methodology
      Appendix B. Prior Audit Reports
      Appendix C. Financial Statements and Auditor Opinion
      Appendix D. Management and Legal Representation Letters
      Appendix E. Laws and Regulations Reviewed
      Appendix F. Report Distribution
Part I - Audit Results
Audit Background

    Introduction. This audit was performed as part of our effort to meet the
    requirements of Public Law 101-576, the “Chief Financial Officers Act of 1990,”
    November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
    Management Act of 1994, n October 13, 1994. The legislation requires financial
    statement audits by the Inspectors General and prescribes the responsibilities of
    management and the auditors for the financial statements.

    Accounting Functions and Responsibilities. The Defense Logistics
    Agency (DLA) and the Defense Finance and Accounting Service (DFAS) are
    responsible for establishing and maintaining adequate internal controls and for
    complying with laws and regulations that govern DLA financial accounting and
    reporting. Our responsibility is to render an opinion on the financial statements
    based on our work, and to determine whether internal controls were adequate and
    whether management complied with applicable laws and regulations.

    Accounting Principles. The DLA Working Capital Fund (WCF) Consolidated
    Financial Statements for FYs 1997 and 1996 were to be prepared in accordance
    with the Office of Management and Budget (OMB) Bulletin No. 94-01, “Form and
    Content of Agency Financial Statements,” November 16, 1993, as amended by
    OMB Bulletin No. 97-01, “Form and Content of Agency Financial Statements,”
    October 16, 1996. Footnote 1 of the DLA WCF Financial Statements discusses the
    significant accounting policies used to prepare the financial statements.

    Disclaimer of Opinion. We were unable to render an opinion on the FYs 1997
    and 1996 Financial Statements of the DLA WCF because we did not perform
    sufficient work and because our limited work disclosed additional scope limitations.
    We did not receive a complete set of financial statements in sufficient time to
    completely perform out audit; therefore, we could not consider that information in
    attempting to render an opinion. We also had difficulty in gaining access to
    financial data in the DLA automated systems (See Appendix A). Because of
    significant deficiencies in the accounting systems and internal controls, we were
    unable to verify the $9.8 billion inventory balance on the FY 1997 financial
    statements.

    We also did not review the FY 1996 comparative data presented on the FY 1997
    Financial Statements of the DLA WCF. We did not render an opinion on the
    FY 1996 Financial Statements of the DLA Defense Business Operations Fund
    (DBOF) because they were not presented as separate statements in FY 1996;
    instead, they were consolidated with other DBOF activities.

    Our audit work indicated that accounting systems were not in compliance with
    accounting standards. We also identified material deficiencies in internal
    controls over inventory valuation and presentation; inventory record accuracy;
    inventory adjustments; Fund Balance With Treasury; and Property, Plant, and
    Equipment. Our disclaimer of opinion report was included in the financial



                                          2
       statements transmitted by the Under Secretary of Defense (Comptroller) to
       OMB. Appendix C includes the financial statements and auditor opinion.

      Defense Business Operations Fund. Before FY 1991, DOD operated a
      number of commercial and industrial facilities under a revolving fund concept.
      In FY 1991, the revolving funds were consolidated to form the DBOF. The
      primary goals of the DBOF were to consolidate similar functions and reduce
      costs through better business practices. DBOF was also intended to promote
      total cost visibility, full cost recovery, and better budget estimates. The
      Inspector General (IG), DOD, was responsible for auditing and rendering an
      opinion on the DBOF Consolidated Financial Statements.

      During FY 1997, the Under Secretary of Defense (Comptroller) restructured
      the DBOF into eight WCFs. Separate WCFs were created for the Army, the
      Navy, and the Air Force. A single, Defense-wide WCF was also created for
      the Defense agencies. The Under Secretary of Defense (Comptroller) then
      restructured the Defense-wide WCF into five funds, including a separate WCF
      for DLA. The Military Departments and Defense agencies manage the
      functional and financial aspects of their funds.

      A WCF is a revolving fund that operates as an accounting entity. Within each
      WCF, business areas or activity groups, such as Supply Management, are
      financed through customer reimbursement. The assets of each business area
      are capitalized under the WCF, and most income results from collections from
      customers.

      Defense Logistics Agency Working Capital Fund. The DLA WCF finances
      six business areas* that provide logistics support to DOD and other authorized
      customers. The FY 1997 Consolidated Financial Statements of the DLA
      WCF reported assets of $12 billion, liabilities of $2 billion, and revenues of
      $12.9 billion. Inventory was the largest asset account on the financial
      statements. DLA reported $9.8 billion as Inventory, Net, which accounted
      for 82 percent of the Total Entity Assets reported on the FY 1997
      Consolidated Statement of Financial Position of the DLA WCF.

Audit Objectives

      The overall objective of our audit was to determine whether the FY 1997
      Financial Statements of the DLA WCF were presented fairly and in
      accordance with OMB Bulletin No. 94-01, “Form and Content of Agency

The six DLA business areas are: Supply Management, Distribution Depots, Reutilization
 and Marketing, Industrial Plant Equipment, Information Services, and the Defense
 Automated Printing Service.
Financial Statements,” November 16, 1993, as amended by OMB Bulletin
No. 97-01, “Form and Content of Agency Financial Statements,”
October 16, 1996. We also assessed internal controls and compliance with
laws and regulations.




                                    4
Part I. A. - Review of Internal Controls
Review of Internal Controls


Introduction

      Audit Responsibilities. Our audit objective was to determine whether controls
      over transactions supporting the accounts in the FY 1997 DLA WCF financial
      statements were adequate to ensure that the accounts were free of material error.
      In planning and performing our audit of the DLA WCF accounts for the year
      ended September 30, 1997, we evaluated the internal controls in order to:

              l   determine the auditing procedures necessary to render an opinion on
                  the financial statements, and

              l   determine whether internal controls had been established.

      That determination included obtaining an understanding of the internal control
      policies and procedures, as well as assessing the level of control risk relevant to
      significant accounting cycles and account balances.

      Management Responsibilities. DLA and DFAS management were responsible
      for establishing and maintaining internal controls over the DLA WCF. Internal
      controls should provide management with reasonable but not absolute assurance
      that:

              l   transactions are properly recorded and accounted for to permit the
                  preparation of reliable financial statements and to maintain
                  accountability over assets;

              l   funds, property, and other assets are safeguarded against waste, loss,
                  unauthorized use, and misappropriation;

              l   transactions that could have a direct and material effect on the
                  consolidating statements, including those related to obligations and
                  costs, are executed in compliance with laws and regulations directly
                  related to the statements, and with any laws and regulations that
                  OMB, DLA management, and the IG, DOD, have identified as being
                  significant and for which compliance can be objectively measured and
                  evaluated.

      Internal Control Elements. The three elements of internal controls are the
      control environment, accounting and related systems, and control procedures.
      The control environment is the collective effect of various factors on
      establishing, enhancing, or mitigating the effectiveness of specific policies and
      procedures. Such factors include management’s philosophy and operating style,
      the entity’s organizational structure, and personnel policies and practices. The
      control environment reflects the overall attitude, awareness, and actions of
      management concerning the importance of controls and the emphasis placed on
      them by the entity. Accounting and related systems are the methods and records
      established to identify, assemble, analyze, classify, record, and report on the
      entity’s transactions and maintain accountability for the related assets and
      liabilities. Control procedures are the policies and procedures, in addition to the

                                            6
                                                         Review of Internal Controls


    control environment and accounting and related systems, that management has
    established to provide reasonable assurance that specific objectives will be
    achieved.

Reportable Conditions

    Gur audit of the FY 1997 Financial Statements of the DLA WCF disclosed
    reportable conditions as defined by Government auditing standards and DOD
    Directive 5010.38, “Management Control Program,” August 26, 1996.

    Reportable conditions are matters coming to our attention relating to significant
    deficiencies in the design or operation of the internal controls that, in our
    judgment, could adversely affect the organization’s ability to effectively control
    and manage its resources and to ensure the preparation of reliable and accurate
    financial information for use in managing and evaluating operational
    performance. A material weakness is a reportable condition in which the design
    or operation of internal controls does not reduce to a relatively low level the risk
    that errors or irregularities could occur.

     Our consideration of internal controls would not necessarily disclose all
     reportable conditions, and would not necessarily disclose all reportable
     conditions that are considered to be material weaknesses.

    Inventory Controls. Internal controls were not adequate to ensure the accurate
    reporting of inventory accounts on the FY 1997 Financial Statements of the
    DLA WCF. As a result, $9.8 billion of inventory was not properly valued,
    classified, described, and disclosed. Gur audit work and management
    disclosures identified the following internal control deficiencies with inventory
    valuation and presentation, accuracy of inventory records, and inventory
    adjustments.

             Inventory Valuation and Presentation. Inventory accounts were
     overstated, and related expense accounts were understated. Most problems with
     inventory valuation occurred because of noncompliance with specific regulations
     (see Part LB.) Also, DLA internal controls were not adequate to ensure that
     subsistence and fuel inventories were properly valued, described, and disclosed
     in the financial statements. Specifically:

                    l   The Financial Inventory Accounting report, which supported
                        the reported fuel inventory balance, contained negative
                        quantities and dollar amounts. We could not assess the impact
                        of the negative quantities and dollar amounts on the financial
                        statements because the Defense Energy Support Center was
                        not able to provide detailed records to support the reported
                        balance.

                    l   Inactive stock was not properly classified and disclosed on the
                        financial statements. Specifically, $3.1 billion of stocks
                        retained for economic and contingency reasons, and

                                          7
Review of Internal Controls


                         $1.8 billion of stocks retained for potential reutilization, were
                         improperly reported as Inventory Held for Sale instead of
                         Excess, Obsolete, and Unserviceable Inventory.

                     l   The $385 million of subsistence stock (inventory managed by
                         the Defense Supply Center Philadelphia) also did not reflect
                         the uncertainty of future sales. During the last several years,
                         DLA has implemented commercial practices, such as the
                         expanded use of direct vendor deliveries and prime
                         contractors, to provide more efficient customer support. The
                         expanded use of commercial supply sources reduced demands
                         for subsistence items (most of which have limited shelf lives)
                         stored in DOD-owned warehouses. DLA did not expect to sell
                         many of the subsistence items that were in inventory during
                         FY 1997, but the facial      statements did not reduce the value
                         of the inventory to reflect its uncertain future sales.

              Inventory Record Accuracy. The DLA sampling plans, used to
      measure inventory record accuracy at the DLA distribution depots, did not meet
      the requirements of the “Chief Financial Officers Act of 1990,” and the results
      of physical inventories taken during the year could not be used for that purpose.
      In addition, inventory in-transit accounts were not reconciled to subsidiary
      records.

                      Sampling Plans. Maintaining accurate inventory records and
      effectively measuring the accuracy of records has been a continuing problem.
      During FY 1997, DLA used 3 different sampling plans to measure inventory
      accuracy at its 21 distribution depots because only 7 of the 21 depots had fully
      converted from Military Department legacy systems to the Distribution Standard
      System. (After the remaining depots install the Distribution Standard System,
      DLA plans to implement a single sampling plan.) The other depots that conducted
      statistical sampling used a sampling plan designed for Air Force or Navy legacy
      systems. The results of the inventories taken during FY 1997 showed accuracy
      rates ranging from 74 to 97 percent. However, those results could not be used to
      determine the overall accuracy of the inventory reported on the DLA WCF
      financial statements because:

                              l   All three sampling plans were designed to measure
                                  record accuracy for logistics purposes. The methods
                                  used to select items for physical counts did not allow
                                  for projections of error rates based on quantity and
                                  condition, which are needed to evaluate the accuracy of
                                  inventory records for financial statement purposes.

                              l   Four depots, which stored about 7 percent of
                                  DLA-managed items during FY 1997, were not
                                  included in any sampling plan. Two depots were
                                  former Marine depots at Barstow, California, and
                                  Albany, Georgia, which were not able to perform
                                  statistical sampling. The distribution depot at

                                             8
                                                   Review of Internal Controls


                          Letterkenny, Pennsylvania, was not included in a
                          sampling plan because it is scheduled for closure. The
                          distribution depot at Columbus, Ohio, was not included
                          in a sampling plan because the depot was working to
                          improve significant problems with the accuracy of
                          locations and quantities recorded. Those problems
                          were identified in IG, DOD, Report No. 97-102,
                          “Inventory Accuracy at the Defense Depot, Columbus,
                          Ohio,” February 28, 1997.

                Inventory In-transit Accounts. General ledger accounts for
Inventory In-transit were not reconciled to subsidiary records. The subsidiary
records were not updated for certain transactions, such as “issues for relocation”
and “receipts for other than procurement - relocation.” Also, the accuracy of the
subsidiary reports had not been verified since FY 1993. These problems have been
reported as material weaknesses in the DFAS Columbus Center’s annual
statements of assurance since FY 1994, and are not expected to be corrected
before September 30, 1999.

        Inventory Adjustments. Large numbers of adjustments were made to
the inventory records.

               l   The year-end trial balance showed that inventory adjustments
                   totaling $1.08 billion were made to reconcile the distribution
                   depots’ accountable records with the inventory control points’
                   financial records. The trial balance also showed other large
                   inventory adjustments for items such as inventory gains,
                   inventory losses, incoming shipment gains, and incoming
                   shipment losses.

               l   Approximately 25 percent of the Military Department field
                   organizations’ returns of DLA-managed materiel received by
                   the distribution depots during FY 1997 were not authorized by
                   DLA inventory control points to be returned. The distribution
                   depots accepted the unauthorized returns and processed the
                   materiel into the supply system for future issue.

               l   DFAS also made unsupported adjustments to reconcile the
                   automated fuel records with the trial balance. After matching
                   the Fuels Inventory Report to the trial balance, journal
                   vouchers were created to reconcile the two amounts.




                                     9
Review of Internal Controls



Followup on Prior Audits

      During the audit, we followed up on previously reported problems in the Fund
      Balance With Treasury and Property, Plant, and Equipment accounts. Gur
      review showed that the internal control deficiencies had not been corrected.

      Fund Balance With the Treasury. In IG, DOD, Report No. 94-159, “Fund
      Balance With the Treasury Accounts on the FY 1993 Financial Statements of
      the DLA Business Areas of the Defense Business Operations Fund, n
      June 30, 1994, we reported that the collection and disbursement data compiled
      by DFAS lacked audit trails and proper matching procedures. The data also
      were not reconciled to the DLA accounting records.

      Our followup work showed that DFAS still could not provide an adequate audit
      trail showing the organizations that processed collections and disbursements.
      Also, the collection and disbursement amounts reported to the Department of
      the Treasury differed from the trial balances that DFAS used to prepare the
      financial statements, and DFAS could not explain the differences. These
      unreconciled differences were reported in Accounts Receivable and Accounts
      Payable, making those accounts unauditable.

      Property, Plant, and Equipment Accounts. The IG, DOD, has issued three
      audit reports on the Property, Plant, and Equipment account of the DLA WCF.
      They   ark
              l    IG, DOD, Report No. 94-149, “Property, Plant, and Equipment
                   Accounts on the Financial Statements of the Defense Logistics
                   Agency Business Areas of the Defense Business Operations Fund for
                   FY 1993,” June 28, 1994.
              l    IG, DOD, Report No. 97-148, “Defense Logistics Agency Actions to
                   Improve Property, Plant, and Equipment Financial Reporting,”
                   May 29, 1997.
              0    IG, DOD, Report No. 98-060, “Joint Logistics Systems Center
                   Reporting of Systems Development Costs,” February 3, 1998.

      All three reports showed
                            ._. that. the reported
                                            .
                                                   balance of DLA Property, Plant, and
      Equipment was materially misstated.

      At the end of FY 1997, DLA had not fully made the transition to the Defense
      Property Accountability System. Also, in the footnotes to the financial
      statements, DLA disclosed that no documentation existed to support the
      recorded acquisition costs of some property.




                                           10
Part I. B. - Review of Compliance With
Laws and Regulations
Review of ComDliance With Laws and Remrlations


Introduction
      We audited selected financial data in the FY 1997 Financial Statements of the
      DLA WCF for material instances of noncompliance with laws and regulations.
      Such tests are required by the “Chief Financial Officers Act of 1990,” as
      amended by the “Federal Financial Management Act of 1994. n

      The Deputy Under Secretary of Defense (Comptroller); the Director, DLA; and
      the Director, DFAS, are responsible for ensuring compliance with laws and
      regulations applicable to the DLA WCF. As part of obtaining reasonable
      assurance on whether the financial statements were free of material
      misstatements, we tested compliance with the laws and regulations listed in
      Appendix E.


Reportable Conditions

      Material instances of noncompliance with laws and regulations are failures to
      follow laws or regulations that cause us to conclude that the aggregation of the
      misstatements resulting from those failures is either material to the financial
      statements, or that the sensitivity of the matter would cause others to perceive it
      as significant.

      Title 31 U.S.C. 3512, “Federal Financial Management Improvement Act of
      1996.” On September 9, 1997, OMB issued a memorandum, “Implementation
      Guidance for the Federal Financial Management Improvement Act (FFMIA) of
      1996. n The FFMIA requires Federal agencies to implement and maintain
      financial management systems that comply substantially with Federal
      requirements for financial management systems, applicable Federal accounting
      standards, and the U. S . Government Standard General Ledger (USGSGL) at the
      transaction level. The FFMIA also requires that we report on agency
      compliance with Federal requirements and accounting standards and the
      USGSGL. These requirements are well-established in the following Federal
      policy documents.

              l   OMB Circular No. A-127, “Financial Management Systems,”
                  July 23, 1993, establishes Government policy for developing,
                  evaluating, and reporting on financial management systems. It
                  requires financial management systems to provide complete, reliable,
                  consistent, timely, and useful financial management information. To
                  achieve this goal, DOD and other Federal agencies must establish and
                  maintain a single, integrated financial management system using the
                  USGSGL.

              l   OMB Circular No. A-134, “Financial Accounting Principles and
                  Standards,” May 20, 1993, establishes policies and procedures for
                  approving and publishing financial accounting principles and
                  standards. It also establishes the policies that Executive branch

                                           12
                           Review of ComDliance With Laws and Rermlations


           agencies and OMB are to follow in seeking and providing
           interpretations and other advice related to the standards.

       l   The Joint Financial Management Improvement Program is a
           cooperative undertaking of the OMB, the Department of the Treasury,
           and the Office of Personnel Management, working with each other
           and with operating agencies to improve financial management
           practices throughout the Government. The Joint Financial
           Management Improvement Program has published a series of
           “Federal Financial Management System Requirements. n

       l   The “Core Financial System Requirements, n September 1995, which
           are part of the Joint Financial Management Improvement Program
           “Federal Financial Management System Requirements, n establish
           standard requirements for the foundation modules of an agency’s
           integrated financial management system. These requirements state
           that a financial management system must support the partnership
           between program and facial       managers and assure the integrity of
           information for decisionmaking and measuring perfomx~~.

As part of our audit to obtain reasonable assurance about whether the FY 1997
Financial Statements of the DLA WCF were free of material misstatement, we
tested compliance with certain provisions of laws and regulations when
noncompliance could have a direct and material effect on the determination of
amounts in the financial statements. We also tested compliant with certain
other laws and regulations specified in OMB Bulletin No. 93-06, “Audit
Requirements for Federal Financial Statements,” January 8, 1993, as modified
by OMB Bulletin No. 98-04, “Addendum to OMB Bulletin No. 93-06,”
January 16, 1998. In planning and performing our tests of compliance, we
considered the implementation guidance issued by OMB on September 9, 1997,
relating to the FFMIA.

For FY 1997, the financial management systems that support the DLA WCF
Financial Statements were not in substantial compliance with the requirements
of the FFMIA. DOD financial management systems comprise multiple finance,
accounting, and feeder systems that are the responsibility of DFAS, the Military
Departments, and the Defense agencies. DOD financial management systems
were unable to produce auditable and timely financial statements for FY 1997
primarily because the accounting and related systems were not designed for
facial    reporting. As a result, the financial condition of DOD and its
operating results for FY 1997 were not verifiable, and DOD had no assurance
that it was properly managing its resources.

Defense Logistics Agency Compliance With Laws and Regulations. We
identified instances of noncompliance with laws and regulations in the DLA
WCF. We did not perform all tests necessary to determine whether the DLA
WCF fully complied with all applicable laws and regulations. Therefore, we
could not determine the range and magnitude of noncompliance with laws and
regulations that may affect the reliability of the DLA WCF facial    statements.


                                     13
Review of ComDliance With Laws and Rermlations


              Compliance With Laws. Financial management systems did not
      comply with Federal requirements, Federal accounting standards, and the
      USGSGL at the transaction level, as required by the FFMIA and OMB Bulletin
      No. 93-06, “Audit Requirements for Federal Financial Statements, n
      January 8, 1993, as modified by OMB Bulletin No. 98-04, “Addendum to OMB
      Bulletin No. 93-06,” January 16, 1998.

      Weaknesses in DOD accounting systems have been reported since DBOF was
      established. Data from the deficient systems were used to prepare the FY 1997
      Financial Statements of the DLA WCF. DFAS and DLA acknowledged that
      the primary accounting and facial    systems used to report information for the
      financial statements were not in compliance with accounting requirements.

      The DFAS Columbus Center’s Defense Accounting System Project Office is
      responsible for managing the migratory systems at DFAS Columbus Center as
      they relate to the DFAS Accounting Systems Strategic Plan for DLA accounting
      systems. The duties of the Defense Accounting System Project Office include
      deployment of selected migratory systems and approving system change requests
      for the legacy systems.

      During FY 1997, a study was conducted to identify a migratory system strategy
      to replace existing financial systems for the DLA WCF. Until the migratory
      strategy is established and accounting systems are selected, the time frames and
      costs of installing compliant accounting systems and producing auditable
      financial statements will remain unknown.

             Compliance With Regulations. We identified instances of
      noncompliance with regulations for accounting systems, inventory valuation,
      and materiel returns.

             Accounting Systems. DLA and DFAS reported in their FY 1997 annual
      statements of assurance that the Standard Automated Material Management
      System, the Defense Integrated Subsistence Management System, and the Defense
      Fuel Automated Management System did not comply with the accounting
      requirements in DOD 7000.14-R the “DOD Financial Management Regulation.”
      The systems also did not comply with OMB Circular No. A-127.

               Inventory Valuation. DLA did not properly value or present inactive
      stock in the financial statements. DLA followed DOD accounting policy and
      valued its $3.1 billion of stocks retained for economic and contingency reasons at
      their latest acquisition value. However, the DOD policy was not consistent with
      Statement of Federal Financial Accounting Standards No. 3, “Accounting for
      Inventory and Related Property,” October 27, 1993, and did not ensure that the
      value of retention stocks reported on the financial statements reflected their
      uncertain future utility. As a result, the $9.8 billion reported on the financial
      statements as Inventory, Net, was overstated by as much as $3 billion, and related
      inventory expense accounts were understated by the same amount. In addition,
      DLA did not establish allowance accounts to recognize the holding gains and
      losses associated with periodic inventory valuation.


                                           14
                          Review of Compliance With Laws and Rermlations


        Materiel Returns. We also identified a lack of compliance with DOD
4000.25-1-M,   “Military Standard Requisitioning and Issue Procedures,”
May 1987, regarding materiel returns. The Manual requires field organizations to
obtain authorization before returning materiel that is managed by the DLA
inventory control points to the distribution depots.




                                    15
Part II - Additional Information
Appendix A. Audit Process

Scope
    Statements Reviewed. The scope of our audit was limited. We examined the
    Statement of Financial Position, with primary emphasis on the inventory
    accounts because they represented 82 percent of Total Entity Assets. Except for
    some aspects of inventory-related expenses and distribution depot revenues, we
    did not examine the Statement of Operations and Changes in Net Position or the
    Statement of Cash Flows. We reviewed management disclosures made in the
    financial statements and annual statements of assurance, evaluated DLA
    facial    systems for compliance with Federal accounting requirements,
    performed tests of internal controls over the inventory accounts, and followed
    up on prior audit reports on DBOF.

    Scope Limitations. Our audit objectives were to perform tests of internal
    controls over the inventory accounts of the DLA WCF and to follow up on
    previously reported internal control weaknesses in the Fund Balance With
    Treasury and Property, Plant, and Equipment accounts. Scope limitations
    prevented us from achieving these objectives. Because we did not receive the
    final version (version 3) of the financial statements in a timely manner, we
    could not consider that information in our review of internal controls.
    Consequently, we were not able to adequately accomplish the audit.

    We had difficulty in gaining access to financial data in the DLA automated
    systems. Specifically, we did not receive the data we requested; we
    experienced major delays in obtaining the data; or we were required to
    substantially modify our audit methodology because of untimely or unavailable
    data. Most of the financial-related data and internal controls that support the
    financial statements reside in DLA automated systems. It was difficult or
    impossible for us to analyze data, evaluate management assertions, or test
    specific control procedures without computer assistance from the DLA Systems
    Design Center or the DLA Operations Research and Resource Analysis Office.
    Both offtces operate on a fee-for-service basis and would not assist us in our
    audit without appropriate funding.

    On  March 2, 1998, we issued a memorandum to the Under Secretary of
    Defense (Aquisition and Technology) and the Under Secretary of Defense
    (Comptroller) describing the difficulties we encountered during the audit in
    gaining access to DLA personnel and records. In response to our
    memorandum, the Deputy Director, DLA, issued a policy to DLA Executive
    Management Team Commanders, Primary Level Field Activities on
    April 3, 1998 requiring all audit requests for access and information be handled
    expeditiously.



                                        19
ADDeDdiX   A. Audit hwxss

      The fact that we did not receive the financial statements and other information
      from DLA in a timely manner contributed to our disclaimer of opinion on the
      FY 1997 DLA WCF Financial Statements.

      Accounting Principles. Accounting principles and standards for the Federal
      Government are under development. The Federal Accounting Standards
      Advisory Board was established to recommend Federal accounting standards to
      three officials for approval. Those three officials are the Director, OMB; the
      Secretary of the Treasury; and the Comptroller General of the United States.
      The Director, OMB, and the Comptroller General issue standards agreed on by
      the three officials. To date, seven accounting standards and two accounting
      concepts have been published in final form. Accounting Standard No. 8 has
      been approved by the Federal Accounting Standards Advisory Board, but has
      not yet been issued. In addition, the Federal Accounting Standards Advisory
      Board issued an exposure draft, “Amendments to Accounting for Property,
      Plant, and Equipment,” February 13, 1998, proposing amendments to Standards
      No. 6 and No. 8. These standards and concepts constitute generally accepted
      accounting principles for the Federal Government. OMB Bulletin No. 94-01, as
      modified by OMB Bulletin No. 97-01, incorporates these standards and
      concepts and should be used by Federal agencies to prepare their financial
      statements. The table below lists the L(Statements of Federal Financial
      Accounting Standards and Concepts. n




                                          20
                                                          Armendix A. Audit Process




       Statements of   Federal Financial Accounting Standards and Concepts

  Accounting
   Standards                                                            Fiscal Year
 and Concerts                      Title                     status      Effective

Standard No. 1     Accounting for Selected Assets and         Final        1994
                   Liabilities, March 30, 1993

Standard No. 2     Accounting for Direct Loans and            Final        1994
                   Loan Guarantees, August 23, 1993

 Standard No. 3    Accounting for Inventory and Related       Final        1994
                   Property, October 27, 1993

 Standard No. 4    Managerial Cost Accounting Concepts        Final        1998
                   and Standards for the Federal
                   Government, July 3 1, 1995

 Staudard No. 5    Accounting for Liabilities of the          Final        1997
                   Federal Government, December 20,
                   1995

 Standard No. 6    Accounting for Property, Plant, and        Final’       1998
                   Equipment, November 30, 1995

 Standard No. 7    Accounting for Revenue and Other           Final        1998
                   Financing Sources, May 10, 1996

 Standard No. 8    Supplementary Stewardship Reporting,     Approved*
                   June 11, 1996

 Concept No. 1     Objectives of Federal Financial            Final
                   Reporting, September 2, 1993

 Concept No. 2     Entity and Display, June 6, 1995           Final



IrFASAB issued an exposure draft, ‘Amendments to Accounting for Property, Plant, and
Equipment, n on February 13, 1998. The exposure draft contains proposed amendments to
standards No. 6 and No. 8.


Through FY 1997, agencies were required to follow the hierarchy of accounting
principles outlined in OMB Bulletin No. 94-01, as amended by OMB Bulletin
No. 97-01. The FY 1997 hierarchy includes standards agreed to and published
by the Director, OMB; the Secretary of the Treasury; and the Comptroller

                                           21
ADpendix A. Audit Process

      General of the United States. It also includes the requirements for the form and
      content of financial statements outlined in OMB Bulletin No. 94-01, as modified
      by OMB Bulletin No. 97-01; accounting standards contained in agency
      accounting policy; and accounting principles published by other authoritative
      sources.

      Scope of Review. The major reason we were unable to render an opinion on
      the facial    statements was that a decision to audit the newly created DLA
      WCF was not made until August 1997. It was not feasible for us to plan and
      perform a complete financial statement audit, as defined by Government
      auditing standards, in the time available. Therefore, we limited the scope of
      our audit of the FY 1997 Financial Statements of the DLA WCF to:

                reviewing management disclosures made in the financial statements
                and annual statements of assurance,

                evaluating DLA financial systems for compliance with Federal
                accounting requirements,

                performing tests of internal controls over the inventory accounts, and

                following up on prior audit reports on DBOF.

      Our work in FY 1996 was on the former DBOF Consolidated Financial
      Statements and was not focused on the DLA activities in DBOF. During the
      audit, we identified additional scope limitations that prevented us from
      achieving our objectives.

      We reviewed internal controls related to the matters discussed in this report.
      We identified weaknesses in internal controls over accounting systems;
      inventory; Fund Balance With Treasury; Property, Plant, and Equipment; and
      materiel returns. Our consideration of the internal controls would not
      necessarily disclose all reportable conditions, and would not necessarily disclose
      all reportable conditions that are also considered material weaknesses.

      Compliance with laws and regulations is the responsibility of DLA
      management. We identified instances of noncompliance with laws and
      regulations that materially affected the DLA WCF financial statements.


Methodology

      Auditing Standards.      We conducted this financial-related audit in accordance
      with generally accepted Government auditing standards issued by the
      Comptroller General of the United States, as implemented by the IG, DOD, and
      OMB Bulletin No. 93-06, as modified by OMB Bulletin No. 98-04. Those
      standards require that we plan and perform the audit to obtain reasonable
      assurance that the f’lnancial statements are free of material misstatements. We
      also relied on our professional judgment in assessing the materiality of matters
      affecting the fair presentation of the financial statements, related internal
      controls, and compliance with laws and regulations.

                                          22
                                                 Ambendix A. Audit Process

Computer-Processed Data. We did not rely on computer-processed data in
performing our assessment of internal controls and compliance with laws and
regulations.

Audit Period. The audit was conducted from October 1997 through
February 1998.

Representation Letters. On March 20, 1998, we received a legal
representation letter from DLA, and on March 25, 1998, we received a
management representation letter from DLA. Appendix D includes both letters.

Contacts During the Audit. We visited or contacted individuals and
organizations within DOD. Further details are available on request.




                                  23
Appendix B. Prior Audit Reports
   The following audit reports identified internal control deficiencies in selected DLA
   accounts.

   IG, DOD, Report No. 98-072, “Defense Business Operations Fund Inventory
   Record Accuracy,” February 12,1998. The overall objective of this audit was
   to determine whether inventory amounts on the FY 1996 DBOF Consolidated
   Financial Statements were presented fairly. The scope of the audit was limited
   because DOD had not developed and executed a DBOF-wide sample. The limited
   audit work indicated that DBOF inventory records were not accurate. We
   recommended that the Director, DLA, correct the automated location
   reconciliation program to provrde periodic reconciliation of the DLA inventory
   control points’ inventory records with the records maintained by depots and other
   storage sites. We also recommended that the Deputy Under Secretary of Defense
   (Logistics), in coordination with the Under Secretary of Defense (Comptroller),
   establish the framework for the annual statistical samples of wholesale and retail
   inventory records, assign an official to oversee the development of the samples,
   and direct the Military Departments and DLA to perform the samples. The Deputy
   Under Secretary of Defense (Logistics) agreed to take actions which satisfy the
   intent of the recommendation. The Director, DLA, identified actions taken to
   correct and implement the automated location reconciliation program and to
   implement a program for researching and evaluating discrepancies identified during
   the reconciliation.

   IG, DOD, Report No. 98-060, “Joint Logistics System Center Reporting of
   Systems Development Costs,” February 3,1998. This report stated that the
   Joint Logistics Systems Center did not transfer about $173 million of systems
   development costs, incurred through the end of FY 1996, to the supply
   management area of the DLA WCF. This caused the Property, Plant, and
   Equipment account to be understated by $173 million. The report recommended
   that the Under Secretary of Defense (Comptroller) provide guidance to the Joint
   Logistics Systems Center on how to equitably transfer the systems development
   costs to the appropriate DOD WCF organizations. Management agreed and
   initiated action to develop policy that will equitably allocate the systems
   development costs.

   IG, DOD, Report No. 98-019, “Inventory Record Accuracy and Management
   Controls at the Defense Logistics Agency Distribution Depots,”
   November 10,1997. The objective of this report was to evaluate inventory
   record accuracy and management controls at the DLA distribution depots. We
   also evaluated the segments of the DLA management control program that affect
   the accuracy of inventory records. The report concluded that inventory record
   accuracy and management controls at the DLA distribution depots were not
   adequate. The sampling plan did not assess the accuracy of dollar values, as
   required by the “Chief Financial Officers Act of 1990.” Also, controls were not in
   place to ensure that all scheduled inventories were completed, that data transferred
   from legacy systems to the Distribution Standard System were accurate, and that
   standard operating procedures were established for the distribution depots.

                                        25
Additionally, the Deputy Under Secretary of Defense (Logistics) did not establish
a standard against which the DLA could measure inventory record accuracy; we
recommended that the Deputy Under Secretary establish such a standard. We also
recommended that the Director, DLA, establish a tracking mechanism to ensure
that all inventories are conducted, ensure the accuracy of data transferred to the
Distribution Standard System, and implement standard operating procedures at all
depots. The Deputy Under Secrerary concurred with the recommendations. The
Deputy Director, DLA concurred with the recommendation to establish a tracking
process to improve inventory management and ensure inventory accuracy.

IG, DOD, Report No. 97-178, “Internal Controls and Compliance With Laws
and Regulations for the Defense Business Operations Fund Consolidated
Financial Statements for FY 1996,” June 26,1997. The objective of this audit
was to determine whether internal controls were adequate to ensure that the
FY 1996 DBOF Consolidated Financial Statements were free of material error and
to assess compliance with laws and regulations that materially affected the financial
statements. The report stated that sound internal controls had not been
established. Material weaknesses included inadequate accounting systems and a
lack of policy and procedures. Noncompliance with laws and regulations
continued to affect the reliability of the DBOF financial statements.
Noncompliance with DOD 7000.14-R was identified in areas such as Property,
Plant, and Equipment; accounts payable; depreciation; and revenue recognition.
No recommendations were made in the report because the issues had been
identified previously.

IG, DOD, Report No. 97-159, “Inventory Accuracy at the Defense Depot,
Susquehanna, Pennsylvania? June 12,1997. The report stated that the
custodial records of the Defense Depot, Susquehanna, Pennsylvania, did not show
correct inventory balances for 1,969 consumable items for which management
responsibility had been transferred from the Navy to the DLA under the
Consumable Item Transfer Program. Consequently, the DLA financial statements
were misstated by $16 million. The Defense Depot also retained $1 million in
obsolete inventory and did not assign storage locations to materiel located in a
warehouse it shared with the Naval Inventory Control Point, Mechanicsburg,
Pennsylvania. The report recommended that DLA identify and dispose of obsolete
items, perform a wall-to-wall inventory of items stored in the warehouse that DLA
shared with the Naval Inventory Control Point, and assign storage locations to the
materiel stored there. DLA agreed with the recommendations.

IG, DOD, Report No. 97-148, “Defense Logistics Agency Actions to Improve
Property, Plant, and Equipment Financial Reporting,” May 29,1997. The
report concluded that DLA had made progress toward correcting problems
identified in prior audit reports. The efforts resulted in a $1.3 billion increase in
the Property, Plant, and Equipment reported in the FY 1995 financial records.
However, three DLA organizations, including 50 separate activities and locations,
did not identify and report at least $422.3 million of capital assets. The report
recommended that DLA identity all Property, Plant, and Equipment used in its
operations and report these assets in its financial statements. In addition, the
report recommended that DLA establish procedures to ensure that all assets are
entered into the Defense Property and Accountability System. DLA generally
agreed to implement the recommendations.



                                      26
                                             AuDendix B. Prior Audit Reuorts

Property and Accountability System. DLA generally agreed to implement the
recommendations.

IG, DoD, Report No. 97-102, Wwentory Accuracy at the Defense Depot,
Columbus, Ohio,” February 28,1997. This report was part of the overall
audit of the accuracy of inventory accounts on the FY 1996 DBOF fiicial
statements. This report addressed the accuracy of inventory records at the
Defense Depot, Columbus, Ohio. The Defense Depot, Columbus, Ohio, did
not include 696,380 chemical suits in its inventory records, and incorrectly
reported the quantities and values of six types of chemical suits. As a result, the
inventory records at the Defense Depot, Columbus, Ohio, were misstated,
which materially distorted the accuracy of the total inventory reported. We
recommended that the Commander, Defense Depot, Columbus, Ohio, revise
inventory procedures to include the following:

       l   researching the causes of discrepancies;

       l   marking storage locations with permanent identification numbers; and

       l   validating the identification numbers against the storage locations
           listed in inventory records.

DLA concurred with the recommendations.




                                     27
Appendix C. Financial Statements and
Auditor Opinion

This appendix (a total of 53 pages) consists of the FY 1997 Financial
Statements of the Defense Logistics Agency Working Capital Fund and the
auditor opinion.




                                  29
                         Overview




DEFENSE LOGISTICS AGENCY

  WORKING CAPITAL FUND

 CONSOLIDATED OVERVIEW
Overview




           2
                                                                                    Overview

                        DEFENSE LOGISTICS AGENCY
                      DEFENSE WORKING CAPITAL FUND
                              FY 97 OVERVIEW


Introduction


        The Defense Working Capital Fund (DWCF) combined existing business-like operations
into a single revolving fund. The DWCF operates under the concept that the costs of
providing/receiving a product and/or service should be visible to both the customer and provider.
The DWCF provides a management structure that allows more DOD components the ability to
provide and receive the best support at the lowest cost. A major feature of this structure is
charging customers the total cost of providing a product and/or service. Reimbursements from
the customers provide the working capital for the fund.

       In FY 97, the Defense Logistics Agency (DLA) had five active activity groups funded
through the DWCF and two inactive activity groups, as follows:

Active
Supply Management Activity Group                           97x4930.5(3
Distribution Depots Activity Group                         7X4930SB
Reutilization and Marketing Service Activity Group         97X4930SN
information Services Activity Group                        97X4930SF50
Automated Printing Service Activity Group                  97X4930.56

Inactive
industrial Plant Equipment                                  97X4930SM
Clothing Factory                                            97X4930.54

SUDDIVManagement Activitv    G~OUD


        The primary mission of the Supply Management Activity Group (Supply) is customer
support through management of logistics processes, which includes:
l   Inventory management for both peacetime and combat support;
l  Transportation management (shared with the Distribution Depots Activity Group) for quick
    response in both normal and emergency situations;
l   Technical management, which guarantees product quality and proper pricing of materiel; and
l   Procurement management, which ensures that DoD gets the best value in procuring supplies
    with taxpayer dollars.

       .SuppIy matiages approximately 4.0 million items used by the Military Services. Supply
received 20 million requisitions in FY 97 and had sales amounting to $11.4 billion. Supply



                                                3
Overview

operates through five Defense Supply Centers and supporting activities with approsimately
10,000 employees at the end of FY 97. The DLA supply centers procure the supplies in
sufftcient quantities to meet the Services’ projected needs. The Columbus,         Richmond      and
Industrial centers procure hardware items, including electronic components,                industrial
equipment, weapons support items, and construction materiel.             The Fuels Supply Center
purchties bulk petroleum and natural gas. The Personnel Support Center buys troop support
materiel, i.e., subsistence stocks, medical supplies, clothing and textiles. The supplies are stored
and distributed either through a complex of depots (Distribution Depots Activity Group) or
shipped directly from vendors to customers.

Distribution DeDots Activitv G~OUD

         The primary mission of the Distribution Depots Activity Group (Distribution) is the
distribution and storage of wholesale and retail materiel in support of customers worldwide.
Distribution is responsible for receipt, storage, issue, packing, preservation and transportation
arrangements for all items placed under its accountability by DLA and Military Service Inventory
Control Points (ICPs).      Currently this includes 6 million line items, 27 million annual
transactions and nearly 32 million square feet of occupied storage space managed through the
Defense Distribution Center and its 24 subordinate distribution depots positioned in the
Continental United States and Europe.

         These depots store a wide range of DoD commodities and end items for the support of the
Military Services and authorized civil agency requisitioners.       In addition to handling general
supplies, individual depots specialize in unusual or difftcult-to-handle items within DOD. These
specializations include storage and transportation of DOD’Spackaged hazardous and flammable
materials, performance of deployable medical hospital assembly operations and the wholesale
distribution of semi-perishable food items.

Reutilization and Marketing Service Activitv G~OUD

        The primary mission of the Defense Reutilization and Marketing Service (DRMS)
Activity Group is the reuse of excess and surplus property within the government and other
authorized agencies and the disposal of remaining property and hazardous waste items through
sales and contractual vehicles. Items not reutilized within DOD are screened for possible transfer
to other Federal agencies or for donation to local governments. Surplus property not reutilized is
then offered for sale to the public on a competitive basis. Overall command and control of this
program is accomplished by DRMS, which consists of a headquarters organization in Battle
Creek, Michigan, and two operations offices, East and West. The mission of this organization is
accomplished by individual Defense Reutilization and Marketing Offices (DRMOs) located on
military installations throughout the world. DRMOs receive, class@, segregate, demilitarize,
account for and report excess materiel for screening, lotting, merchandising, and sales. Excess
items received’ by the DRMOs and meeting military service criteria are automatically referred to



                                                  4
                                                                                       Overview

DOD item managers through front-end screening notices. Inventory managers with requirements
submit automated requisitions using standard requisition and issues procedures.

        The disposition of hazardous property is accomplished according to its classification as
hazardous waste or materiel in accordance with various stringent Federal, state and local laws. in
this capacity, DRMS handles the majority of DOD property governed by the Resource
Conservation Recovery Act (RCRA) of 1976, ac amended. Generally all hazardous waste is
directly disposed of through contracts funded by the military services. However, hazardous
materiel has reutilization value and goes through the same general procedures as all other DOD
property, with the distinction that it receives much closer scrutiny before it is offered for sale to
the public.

        The economic recovery of precious metals from excess and surplus metal-bearing
materiel is also performed by DRMS. The recovered precious metal is used for authorized
internal purposes or as Government Furnished Material (GFM). The costs to recover this
materiel are passed on to the users.

Information SeTvices Activitv GrouD

        The Information Services Activity Group was revised to include a DLA element at the
beginning of FY 1996. On October 1, 1995, DLA began operation of its Information Services
Activity Group with a single Central Design Activity (CDA), the DLA System Design Center
(DSDC). The Activity Group combines DSDC and the Defense Automatic Addressing System
Center (DAASC) with over 1,100 employees and an operating budget of $129.0 million.

        The DLA Systems Design Center (DSDC) serves as a primary provider of integrated
information management support, delivering responsive and innovative solutions to meet the
DLA and DOD customers’ needs. DSDC is the DLA Central Design Activity (CDA) operating
within the Information Services Activity Group of the Defense Working Capital Fund. DSDC
headquarters are in Columbus, Ohio, with nine other geographically dispersed satellite sites.
These sites, which include Ogden, Utah and Battle Creek, Michigan, among others. allow for co-
location with some of our major customers. DSDC currently has three major program areas.
They are:

l   Software development and maintenance
l   Technology and infrastructure support to DLA
l   The Defense Automatic Addressing System Center and Laboratory Operations (DAASC).

        Software development and maintenance represents the primary mission of DSDC. This
includes the design and development of new applications in direct support of DLA’s mission and
the mainterrrce of existing production legacy and migration Automated Information Systems
(AK).



                                                  5
Overview

          Technology and infrastructure support and the DAASC constitute the remaining 30
percent or $38.1 million of total annual revenue. Infrastructure is the term used to describe the
technology environment under the direct control of DLA. This environment consists of the
facilities, computing platforms, hardware systems, software systems, network configurations,
shared services, data architectures, repositories and information technology processes required to
support the DLA mission. DSDC provides technology support in areas such as operating system
installation and support, capacity planning and management, Electronic Commerce/ Electronic
Data Interchange (EUEDI), telecommunications          support such as local area network (LAN)
design and support, and the Defense Message System @MS).

        The DAASC, which was capitalized during FY94, is now a part of DSDC and serves as
an essential utility, which provides two critical types of services to users. These are core supply
and logistical transaction addressing and routing services and custom user-oriented management
information services. The DAASC primary location is in Dayton, Ohio, with a satellite in Tracy,
California. DOD users with a logistics or supply requirement process a transaction through their
unique supply system which, in turn, transmits the requirement to the DAASC for editing,
addressing and routing to the correct source of supply. DAASC operates 24 hours a day, 365
days a year processing an average of 4.5 million transactions daily. In addition, DAASC
provides support to the Foreign Military Sales (FMS) Program with annual revenues of
approximately $1 .O million.

        DSDC services are utilized by a wide variety of DLA and DoD customers. Our products
and services benefit the DLA supp!y centers by providing the means by which requisitions are
processed and item buys are recommended. The distribution depots process line items shipped
and receipts processed using systems DSDC developed. The Defense Contract Management
Command (DCMC) uses our systems to process contractual documents worth billions of dollars.
In the end, the war fighter benefits because his logistical needs are met, due in large part to the
systems developed and maintained by DSDC.

Automated Printing! Services Activitv   Group


         The Automated Printing Service Activity Group’s primary mission is printing,
duplicating, and document automation for the Department of Defense (DOD). In FY 97, the
Deputy Secretary of Defense changed the name of “Defense Printing Service” to “Defense
Automated Printing Service” (DAPS). This change reflects the DAPS role in the DOD transition
from hardcopy to electronic-based document management. DAPS has direct responsibility for
the DOD automated printing program encompassing electronic conversion, retrieval, output, and
distribution of digital and hard copy information. DAPS provides quality products and services
that are competitively priced and delivered on time to their customers. DAPS is one of the first
government organizations to conduct in&a-government business using Visa’s International
Merchant Purchase Authorization Card (IMPAC). The use of the IMPAC card has resulted in
significant cost savings, reduction in time required to process transactions, and in addition, it is
“user friendly.”
                                                                                    Overview


         DAPS is comprised of a Corporate Support Team located at Fort Belvoir. Virginia, 78
major field locations and 163 smaller document automation facilities. Approximately 1,900
civilian personnel support the DAPS mission.

r+!++?!   Plant Eqtrbment

        The Industrial Plant Equipment (IPE) Activity Group’s primary function was dedicated to
meeting the worldwide needs of the Department of Defense metal working machinery
maintenance and the repair of current in-use Industrial Plant Equipment. IPE also supported the
Military Services in times of National Emergency.       The Defense Industrial Reserve Act (50
U.S.C. 451 et seq.) required IPE to provide for an industrial reserve of machine tools. Since FY
87, amendments to this Act have required the Services to pay for the repair, overhead and storage
of Industrial Plant Equipment. The Services made economic decisions to engage IPE to perform
reimbursable repair, rebuild or refabrication of equipment or procure new items. Eventually
DLA downsized the industrial reserve to a demand based reparable inventory.

         In January 1992, DLA consolidated the Defense Industrial Plant Equipment Center
(DIPEC) with the Defense Supply.Center Richmond (DSCR). DSCR manages the maintenance
facility located in Mechanicsburg, Pennsylvania.  In March 1992, the Office of Secretary of
Defense (Production & Logistics) assigned single DOD Consolidated Materiel Management of
FSG 34 reparable equipment to DLA. During FY 93, the New Procurement mission of the
Industrial Plant Equipment Activity Group was transferred to the DLA Supply Management
Activity Group and the Reparable Inventory storage function moved to the DLA Distribution
Depots Activity Group. During FY 97, the depot maintenance mission of the IPE Activity Group
was transferred to the Supply Management Activity Group.

         The Reparable Inventory is demand based and retained for reutilization as an economic
alternative to procurement of new equipment. The inventory is reported as Principal Inventory
(Federal Supply Clas 34) in the Supply System Inventory Report (SSIR) provided to the Qffice
of Secretary of Defense (Production & Logistics). DSCR operates a system for the identification
of metalworking machinery and performs associated federal cataloging tasks. DSCR also
publishes handbooks and provides technical data in support of FSG 34 reparable machine
acquisition, storage, maintenance and movement.

        Financial activity associated with cot&-cts let before IPE’s consolidation into Supply
Management is expected to continue for the 5M appropriation for several years, at the conclusion
of which all residual financial balances will be closed.

Clothina Factorv

        Through ‘FY 94, DLA had a sixth business area, the Clothing Factory (97X4930.54).
Effective September 30, 1994, the Clothing factory was closed urlder the Defense Base


                                                7
Overview

Realignment and Closure Act (BRAC). At that date, all of its operations were discontinued,
except for the Flag and Embroidery function which was transferred to Clothing & Textiles
(C&T), located at the DPSC, Philadelphia, PA. All residual financial balances were closed
during FY 97.


Strateeic ODeratiw Initiatives and Program Performance Measures

       DLA continues its focus to operate in a manner similar to commercial firms in the
marketplace, with an emphasis on increased customer satisfaction. DLA emphasizes quality
improvement, commercial business practices and modem technologies to reduce the cost to the
customer while maintaining the maximum level of readiness support for the Services.

        In January 1994, DLA was selected as the initial DoD pilot project under the Government
Performance and Results Act of 1993 (GPRA). Although DLA completed its requirements under
this project, it continues to establish an annual performance plan including operating initiatives
designed to focus on specific objectives presented in the DOD Logistics Strategic Plan and the
DLA Corporate Plan.

         The program performance measures for each of the activity groups are included in the
respective area’s overview section. The operating initiatives are presented under four broad
strategic goals. The following are the DLA strategic goals and representative activity groups
initiatives.

1)       Put Cutomers First

!bDDlY


        St&k Availability - Stock Availability measurement applies to NonFuel (excluding
subsistence) and is the percentage of demands processed by the supply system3 without
interruption. While it is a measure of timeliness, quantity, and customer satisfaction, DLA
NonFuel (excluding subsistence) is fUnded to reach a targeted Supply Availability goal of 85%.

        War Reserve Availability - Although the Fuel commodity availability always has been
100% in peacetime, its true purpose is to have enough fuel available in each Commander in
Chiefs (CINC) area of responsibility to prevent War Reserves levels from being penetrated. The
performance for this goal is determined by the number of fuel types (in each CINc’s area of
responsibility where there is enough fuel on hand to meet his War Reserve requirement) to the
total number of fuel types managed in all CINCs’ area. This is referred to as the War Reserve
Availability measure.




                                                 8
                                                                                     Overview


Distribution Depots

        Customer Satisfaction Index - The success of Distribution in meeting its mission is
measured primarily through the satisfaction of its customers. In October 1994, DLA Corporate
Administration, at the direction of DLA Materiel Management (MM), conducted a survey of
30,000 customers, asking each their opinions on DLA MM products and services. The goal was
to determine customer satisfaction with DLA in three areas: quality, responsiveness, and price.
Results from this survey serve as a baseline for customer satisfaction measurement and reporting.
DLA MM conducts a survey of a random sample of customers annually, comparing the results
with the baseline survey.- The customer satisfaction index which is the primary program
performance measure for this initiative is based on survey data and measures the percentage of
customers who are satisfied with DLA services/products.




        Reutilization/Transfer/Donation Enhancements - DRMS continued to excel in its first
mission of reutilizing, transferring and donating (R/T/D) property to authorized customers. In
FY 97, DRMS reutilized, transferred or donated $3.9 billion based on transfer value. This
represented 18 percent of generations against our GPRA goal of 17.5 percent. At a fully
burdened cost of $72 million, DRMS provided $3.9 billion in cost avoidance to DOD, Federal
and State customers at a cost of $0.0 I8 on the dollar of acquisition value. DRMS achieved this
performance through improved automation, aggressive customer promotion through conferences
and publications, and commodity analysis to target property to W/D customer needs. DRMS
maintains a toll free customer service phone. line to address questions or concerns participants
may have pertaining to the m/D program.

Information Services

        Ontime Deliverables - The success of information Services in meeting its mission is
measured primarily through the satisfaction of its customers.        Ontime Deliverables is one
program performance measure that exists to measure the current developmental status of project
completion, and it compares the estimated project completion date to the current status (or the
actual completion date) for deliverables. The delta provides information as to whether the
development is within the stated tolerance of the estimate (either ahead of, exactly on, or behind
schedule).
Overview

Automated Printing Service

        Customer Satisfaction Index - A survey was administered to 412 customers randomly
selected from a population of 2,533. To ensure that the survey results accurately reflected our
customers’ opinions, DAPS customers were divided into groups based on the branch of DOD
Service, the DAPS geographic area, the length of time the customer had interacted with DAPS,
and the volume of business revenue provided by the customer.


2)      Improve the Process of Delivering Logistics Support

SUDD~Y


        Total Asset Visibility - This initiative has been divided into a number of sub-Initiatives
for both Supply and Distribution. One Supply initiative is In-Storage Visibility of Retail Assets.
Progress on this initiative is tracked based on a number of factors and is discussed below:

        In-Storage Visibility of Retail Assets promotes the visibility of retail assets available for
use in filling backorders and offsetting new procurement. This initiative has reached an Initial
Operation Capability (IOC) phase with selected Navy, Army, Air Force and Marine activities.
As of the end of FY 97, approximately $59 million worth of retail asset redistributions from IOC
sites have been accomplished at the direction of DLA Inventory Control Points (ICPs) to fill
backorders and offset new procurements.

Distribution Denots

        Mail-like Matter Movement (X43) - This is an initiative under the Express Delivery
Reinvention Lab, a partnership with the U.S. Air Force, TRANSCOM, and Federal Express. M3
of classified materiel allows secret and confidential cargo to move quickly, securely and cheaply
via express transportation within the Continental United States (CONUS).

Reutilization and Marketing Services

        Worldwide Web (www) - A Hammer Award was presented to a team of DRMS
employees for the Information Superhighway Initiative. The award recognized process changes
made possible because of the team’s development of the DRMS WWW site. It allows anyone
with a graphical interface to the Internet to search by noun, Federal Supply Class (FSC), national
stock number (NSN) and geographic location. The DRMS WWW site was widely used, with
over 3.5 million Web pages viewed. DRMS implemented a number of enhancements to the
WWW site in FY 97...;These included:

l    Redesign of the Web site to establish a common “look and feel” to enable users to
     utilize DRMS processes more easily.


                                                  10
                                                                                       Overview

l    Import of the Fed Log (FLIS) CDs to the Oracle database. allowing FLIS data to
     be linked to online property searches.
l    Establishment of links from search output to available photographs of property.
l    Posting of hazardous waste procurement solicitations.

Automated Printing Services

        DAPS is dedicated to the transition from paper to electronic-based document
management, and is an integral part of the DOD plan to evolve into the age of electronic
documentation. DAPS is leading the effort to substantially reduce paper-based bulk printing and
warehousing. This will be accomplished by converting paper documents to digital form, and
providing the infrastructure for quick, economical, and secure digital distribution and output at
the point of need.

3)       Empower Employees

All Activitv Grouos

         Employee empowerment initiatives continued to receive the full support of DLA. These
initiatives include Afirmative Action Recognition, Employee Recognition, &ma1 Emplovment
Opportunitv Coverage. Professional Development and Teaming. As further illustration of the
agency’s commitment to this vital area, DLA established a separate office dedicated to employee
development.      Our efforts to develop the logistics workforce into a multiskilled and highly
flexible resource are imperative with the downsizing efforts being undertaken throughout the
DOD.

4)       Increase readiness at reduced cost

Slmoly

        Shift to Commercial Practices (SCP) - SCP includes Prime Vendor Contracts, Quick
Response Contracts, Corporate Contracts, Customer Value Contracts, and all other long-term
contracts. The SCP objective is to minimize operating and inventory investment costs using
DLA leverage, and improve responsiveness to customers.           A multi-faceted approach for
achieving these objectives uses strategies such as direct vendor delivery, prime vendor, long-
term/multi-year contracting, just-in-time delivery, and electronic commerce/electronic       data
interchange (EUEDI). These contracts yield better quality, lower prices, shorter lead times and a
reduced vendor base. Progress on this initiative is tracked based on a number of factors, two of
which are discussed below:




                                                 11
Overview

l   Shifi to Commercial Practices (SCP) as a Percent of Dollars Obligated - SCP as a percent of
    dollars obligated grew to 78% (including DFSC), 61% (excluding DFSC) for year end FY97,
    up 72% (including DFSC) from 58% (excluding DFSC) at year end FY96.
l   EC/EDI Utilization as a Percent of, Contracting Actions - EC/ED1 utilization measures the
    efficiency gained through the use of EC/ED1 technology. The goal is to reach 85% utilization
    by 1998. EC/ED1 utilization as a percent of contract actions for FY97 was 76%, up from
    7Z: iii FY96, and 67% in FY95.

Distribution Depots

        Inventory Accuracy - DLA’s policy states that accurate inventory records form the
cornerstone of effective inventory control. One of our primary objectives is to maintain on-hand
balance integrity. In order to attain current and future goals, the distribution depots will be
required to conduct wall-to-wall inventories at selected depots and/or within isolated work
centers. These inventories will be designed to increase the accuracy of inventory records,
formalize and implement cycle count procedures to identify and correct processes, and
implement quality control techniques to ensure that distribution balance-affecting processes are
performed correctly.

Reutilization and Marketing Service

         Activity Based Costing - DRMS partnered with KPMG Peat Marwick LLP to implement
Activity Based Costing (ABC) to better measure the true cost of its processes. The DRMS ABC
application assigns labor and non-labor costs to activities based on the level of effort spent on
each activity. Activity costs are then directed to processes (reutilization, transfer, donation, sales,
etc.). Finally, the process costs are directed to Federal Supply Class (FSC), giving DRMS
visibility of the cost of disposing of individual commodities by the type of disposal method used
(i.e., the cost to reutilize a vehicle, the cost to sell an engine, etc.). The ABC data will be used to
identify areas for cost reduction, to support cost recovery billings to the Military Services and in
making privatization decisions.

Financial Management aod the Chief Financial Ofiicers Act of 1990

        In 1990, Congress passed the Chief Financial Offtcers Act (the Act) which mandated the
preparation of financial statements in accordance with Generally Accepted Accounting
Principles. The Act, along with the creation of the Defense Working Capital Fund (DWCF),
formerly known as the Defense Business Operations Fund (DBOF), represented a fundamental
shift in traditional l?md management (i.e., obligations and outlays) to a more commercial,
business-oriented approach.
                      ..,   .
        DLA began preparing financial statements in accordance with the Act in 1992 and
believes the information reported continues to improve. Nevertheless, several challenges remain
and are discussed in the following paragraphs. During FY 94, DLA established short and long-


                                                  12
                                                                                       Overview

term goals for creating a comprehensive financial management system. and undertook a number
of initiatives to identify and assess the financial statement impact of current accounting practices.
These goals and initiatives enabled DLA to establish milestones to improve financial data
accuracy and reliability. DLA has worked diligently to reach these milestones during FY 95, FY
96 and FY 97, with significant progress achieved in the areas of accounts payable and receivable,
property, plant and +Pmrpn? and financial analysis. This process continues in FY 98.

        The Federal accounting community continues to establish “Generally Accepted
Accounting Principles” for federal agencies, with additional guidance issued to reporting units by
their respective Comptroller divisions. The continuing development of “Generally Accepted
Accounting Principles” will greatly enhance the accuracy and usefulness of reported financial
information. However, reported financial information may be inconsistent in the short-term.

        Supply is currently unable to comply with certain requirements under Federal Accounting
Standards Advisory Board (FASAB) Statement Number 3 regarding the recognition of unrealized
holding gains and losses upon the sale of inventory. Supply records these gains and losses when
there is a change in the carrying cost. In FY 98, DLA-HQ and DFAS plan to work together to
achieve a reliable and accurate solution to recognize these gains and losses at the proper time.

        “DoD Guidance on Form and Content of Financial Statements for FY 97 Financial
Activity” requires that intrafimd transactions be identified and eliminated. Currently, the Office
of the Secretary of Defense (OSD) has not issued detailed accounting guidance regarding this
reporting requirement and current accounting systems used to record the financial information
have not been designed to identify and retain this information. Therefore, in order to comply
with this requirement, estimated calculations are provided.

        Traditional fund management., ‘prior to DWCF, did not require the calculation of
depreciation on property, plant and equipment (PP&E). As a result, PP&E was not always
accurately reflected in the accounting records, and through FY 94 DLA had not properly
accounted for all th- PP&E for which it was responsible. Significant progress has been Tade
toward correcting this situation. In conjunction with the implementation of the Defense Property
Accounting System (DPAS), a!! DLA field acti-. ities undertook the review and revision of their
property records. Additionally, DLA began validating the records of sites with significant
balances and/or discrepancies. DPAS implementation was substantially completed through the
end FY 97.

  .
        Accounts Receivable and Accounts Payable include “undistributed” amounts which
represent the differences between collections and disbursements on the general ledger and those
which have been reported through the finance network/ACRS cash report. The Department has
recognized the “undistributed” problem and is currently pursuing corrective actions.        The
Defense Finance and Accounting Service (DFAS) site in Columbus, OH, which supports DLA,
has also reco$z‘ed this problem and has assigned accounting personnel for each DLA activity
group the responsibility of reconciling the finance network and ACRS cash figures.


                                                  13
Overview


        Accounts Receivable and Accounts Payable include overaged and negative amounts that
are currently under investigation for system and processing deficiencies. Significant progress has
been made in resolving some of the overaged amounts within Accounts Receivable and Accounts
Payable as a result of continuing emphasis on Unmatched Disbursements and Negative
Unliquidated Obligations.


Financial Performance Measures

        The financial performance measures for each of the activity groups are included in the
respective area overview sections.




                                                 14
                  Principal Sta ternen ts




DEFENSE LOGISTICS AGENCY

  WORKING CAPITAL FUND

 CONSOLIDATED PMNCIPAL
      STATEMENTS
Principal Statements




                       16
                                                                                  Principal Statements

Department of Defense
Defense Logistics Agency -Working     Capital Fund - Consolidated Statements
Statement of Financial Position
As of September 30,1997
(Thousands)

ASSETS

1. Entity Assets:
   a    Transactions with Federal (Intragovernmental) Entities:
        (1) Fund Balana with Treasury (Note 2)                                  (S414.163)       S424,157
        (2) Investments, Net (Note 4)                                                   0               0
        (3) Accounts Reaivabk, Net (Note 5)                                       639,674         769,606
        (4) Interest Reaivahle                                                          0               0
        (5) Advances and Prepayments                                                   22             119
        (6) Other Federal (Intragovernmental) (Note 6)                                  0               0
   b. Tmnsactions with Non-Federal (Governmental) Entities:
        (I) Investments (Note 4)                                                         0              0
        (2) Accounts Reaivable, Net (Note 5)                                      177,701         205.665
        (3) Credit Program Receivables/ Related
             Foreclosed Property, Net (Note 7)                                           0              0
        (4) Interest Reaivable, Net                                                      0              0
        (5) Advances and Pqayments                                                178,244         199,752
        (6) Other Non-Federal (Governmental) (Note 6)                                   0               0
   c. Cash and Other Monetary Assets (Note 3)                                           0               0
   d. Inventory, Net (Note 8)                                                   9,824,808       9.542,887
   e. Work in Process (Note 9)                                                          0               0
   f. Operating MateriaWSupplies, Net (Note IO)                                    18.850           1.653
   g. Stockpile Materials, Net (Note 11)                                                0               0
   h. Seized Properry (Note 12)                                                         0               0
     i. Forfeited Property, Net (Note 13)                                               0               0
    j. Goods Held Under Pria Support and
         Stabilization Programs. Net (Note 14)                                           0              0
   k. Property, Plant and Equipment, Net (Note 15)                               1.272,25 I        808,548
     1. War Reserves                                                                     0               0
   m. Other Entity Assets                                                          237.353         246.773
   n. Total Entity Assets                                                      $11.934.740     $12.199.160

2. Non-Entity Ass&t
   a   Transactions with Federal (Intragovemmental)   Entities:
        ( 1) Fund Balana with Treasury (Note 2)                                    $23,762         $21,937
        (2) Accounts Reaivabk, Net (No@ 5)                                               0               0
        (3) Interest Reaivabk, Net                                                       0               0
        (4) Other (Note 6)                                                               0               0




The accompanying     notes are an integral part of these statements.




                                                             17
Principal Statements

Department of Defense
Defense Logistics Agency - Working Capital Fund - Consolidated           Statements
Statement of Financial Position
As of September 30.1997
(Thousands)

ASSETS, Continued

2.   Non-Entity Assets:
       Transactions with Non-Federal (Governmental) Entities:
        (1) Accounts Receivable, Net (Note 5)                                                  SO             so
        (2) Interest Receivable, Net                                                            0               0
        (3) Other (Note 6)         .                                                            0               0
       Cash and Other Monetary Assets (Note 3)                                                  0               0
       Other Non-Entiv Assets                                                              65,966         38.362
       Total Non-Entity Assets                                                            S89.728        560.299

3.   Total Assets                                                                     S 12.024.468   $12.259.459

LIABILITIES

4.   Liabilities Covered by Budgetary Resources:
     a Transactions with Federal (Intragovernmental) Entities:
         (I) Accounts Payable                                                            s677.526       $826,069
         (2) Intetest Payable                                                                    0              0
         (3) Debt (Note 16)                                                                      0              0
         (4) Other Federal (Intragovernmental) Liabilities (Note i 7)                      87.544        183,069
     b. Transactions with Non-Federal (Governmental) Entities:
         (1) Accounts Payable                                                             811,824        931,484
         (2) Accrued Payroll and Benefits
             (a) Salaries and Wages                                                        16,235          5,272
             (b) Annual Accrued Leave                                                     102,190         96.4%
             (c) Severance Pay and Separation Allowance                                         0              0
         (3) Interest Payable                                                                   0              0
         (4) Liabilities for Loan Guarantees (Note 7)                                           0              0
         (5) Lease Liabilitier @Jote 18)                                                        0              0
         (6) Pensions and Other Actuarial Liabilities (Note 19)                                 0               0
         (7) Other Non-Federal (Governmental)
             Liabilities (Note 17)                                                          67.519        65.324
     c. Total Liabilities Covered by Budgetary Besources:                              8: .762,838    $2.107.714




The accompanying      no*    are-an integral part of these statements.




                                                              18
                                                                               Principal Statements

Department of Defense
Defense Logistics Agency - Working Capital Fund - Consolidated Statements
Statement of Financial Position
As of September 30.1997
(Thousands)

LLQBILITIES, Continued

5. Liabilities Not Covered by Budgetary Resources:
   a Transactions with Federal (Intragovernmental) Entities:
       (1) Accounts Payable                                                          SO
       (2) Debt (Note 16)                                                             0
       (3) Other Fe&ml (Magovernmental) Liabilities (Note 17)                         0
   b. Transactions with Non-Federal (Governmental) Entities:
       (I) Accounts Payable                                                           0
       (2) Debt (Note 16)                                                             0
       (3) Lease Liabilities (Note 18)                                                0
       (4) Pensions and Other Aauarial,Liabilities (Note 19)                    191,226
       (5) Other Non-Federal (Governmental) Liabilities (Note 17)                     0              0
   c. Total Liibilitics Not Covered by Budgetary Resources                    S191.226              so

6. Total Liabilities                                                         s1.954.064     S2.107.714

NET POSITION (Note 20)

7. Balances:
   a Unexpended Appropriations                                                       so             so
   b. Invested Capital                                                       20.020.765     24,768,356
   c. Cumulative Results of Operations                                       (9.759.135)    (8.630.905)
   d. Other                                                                           0     ($985,706)
   e. Future Funding Requirements                                              (191226)              0
   t Total Net Position                                                     S10.070.404    SlO.151,745

8. Total Liabilities and Net Positioo                                       Sl2.024.468    312.259.459




The rccompanying.notcs are an integral part of these statements.




                                                          19
Principal Statements

Department of Defense
Defense Logistics Agency - Working Capital Fund - Consolidated Statements
Statement of Operations and Changes in Net Position
For the Period Ended September JO.1997
(Thousands)

REVENZ’ES AND FINANCING SOURCES

 1. Appropriated Capital Used                                                                so              so
 2. Revenues from Sales of Goods and Services
    a. To the Public                                                                364,690            392,855
    b. Intragovernmental                                                         12.263.255         12.733.177
 3. Interest and Penalties, Non-Federal                                                    0                  0
 4. interest, Federal                                                                      0                  0
 5. Taxes (Note 2 1)                                                                       0                  0
 6. Other Revenues and Financing Sources (Note 22)                                  244,897            101,321
 7. Less: Taxes and Reaipts Transferred to
    the Treasury OTOther Agencies                                                     0                       0
 8. Total Revenues and Financing Sources                                    S12.872.842            S13.227.353




 9. Program or Operating Expenses (Note 23)                                      S2,535,115         S&497.343
10. Cost of Goods Sold (Note 24)
    a To the Public                                                                 397,498            156,912
    b. Jnrragovemmental                                                          10.064,03 1         8,554,585
1I. Depreciation and Amortization                                                    92,624             76,510
12. Bad Debts and Writeoffs                                                              132                 19
13. Interest
   a Federal Financing BankIfreasuy       Borrowing                                           0                0
   b. Federal Securities                                                                      0                0
   c. Other                                                                                  143            224
14. Other Expenses (Note 25)                                                    993.642                 820.5 16
15. Total Expenses                                                          $14.083.185            s14.106.109

16. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses
    Before Extraordinary Items                                              (61.210.3431
                                                                            .I          I,
                                                                                                     (S878.756)
17. Plus (Minus) Ext&rdimuy Items (Note 26)                                        (825)                 (2,500)
18. Excess (Shortage) of Revenues and
    Financing Souras Over Total Expenses                                    (S1.211.168)             (S881.256)




The accompanying     note are an integral part of these statements.
                                                                                              I




                                                           20
                                                                               Principal Statements

Department of Defense
Defense Logistics Agency - Working Capital Fund - Consolidated Statements
Statement of Operations and Changes in Net Position
For the Period Ended September 30,1997
(Thousands)

EXPENSES, Continued

19. Net Position, Beginning Balance, as Previously Stated                   s10,151,745     SlO.876.495
20. Adjustments (Note 27)                                                        78.391        (375.389)
2 1.Net Position, Beginning Balance, as Restated                            SlO,230,136     $10,501.106
22. Excess (Shortage) of Revenues and
    Financing Sources Over TotsI Expenses                                     (1.211,168)      (881,256)
23. Plus (Minus) Non Operating Cha&es (Note 28)                                1.051.436        531.895
24. Net Position, Ending Bafaace                                            s10.070.404     s10.151.745




The accompanying notes are an integral part of these strbmmts.




                                                            21
Principal Statements

Department of Defense
Defense Logistics Agency - Working Capital Fund - Consolidated          Statements
Statement of Cash Flows
For the Period Ended September 30.1997
(Thousands)

CASH FLOWS FROM OPERATING                ACTIVITIES

 1. Excess (Shortage) of Revenues and Financing
    Sources Over Total Expenses                                                                     (S881.256)

Adjustments Affecting Cash Flow:
 2. Appropriated Capital Used .                                                                0              0
 3. Decrease(Increase) in Accounts Receivable                                            (96,385)      701,043
 4. Decrrax (Increase) in Other Assets                                                 1,471,392       928.056
 5. increase (Decrease) in Accounts Payable                                              (14.061)       (44.30 1)
 6. increase (Decrease) in Other Liabilities                                             (78,209)        30,416
 7. Depreciation and Amortization                                                         92,620         76.5 10
 8. Other Unfunded Expenses                                                                    0        (97,819)
 9. Other Adjustments                                                                   (238,324)     ( 112,478)
10. Total Adjustments                                                                si,137,033     51.481.427

il. Net Cash Provided (Used) by Operating Activities                                   (S74.135)      S600.171

CASH FLOWS FROM INVESTXNG ACTIVITIES

12. Sale of Property, Plant and Equipment                                                    so              so
13.   Purchase of Property, Plant and Equipment                                        (227,729)      (131,414)
14.   Sale of Securities                                                                      0              0
IS.   Purchase of Securities                                                                  0              0
16.   Collection of Loans Receivable                                                          0              0
17.   Creation of Loans Receivable                                                            0              0
18.   Other Investing Cash Provided (Used)                                                    0              n

19. Net Cash Provided (Used) by Investing Activities                                  (S227.729)     6131.414)


CASH FLOWS FROM FINANCING                ACTIVITIES

20. Appropriations (Current Warrants)                                                         so
21. Add:
    a. Restorations                                                                            0                 0
    b. Transfers of Cash from Others                                                       7,445        330.824
22. Deduct:
    a Withdrawals                                                                              0                 0
    b. Transfers of Cash to Others                                                       543.90 I     I.182252

23. Net Appropriations                                                                (S536,456)      (S85 1.428)

The accompanying      notes arc an integral part of these statements.




                                                             22
                                                                                       Principal Statements

Department of Defense
Defense Logistics Agency -Working Capital Fund - Consolidated            Statements
Statement of Cash Flows
For the Period Ended September 30,1997
(Thousandi)

CASH FI.OWS FROM FINANCING ACTIVITIES,                   Continued

24. Borrowing from the Public                                                                SO             so
25. Repayments on Loans to the Public                                                         0              0
26. Borrowing from the Treasury and the Federal Financing Bank                                0              0
27. Repayments on Loans tiom the Treasury and the Federal
    Financing Bank                                                                            0              0
28. Other Borrowings and Repayments                                                           0              0


29. Net Cash Provided (Used) by Financing Activities                                  ($536.456)    (SS5 I.428)

30. Net Cash Provided (Used) by Operating,
      Investing and Financing Activities                                              (S838S20)      (S382,67 I)

31. Fund Balance with Treasury, Cash, and
      Foreign Currency, Beginning                                                      S424.157      5806.828

32. Fund Balance with Treasury, Cash, and
      Foreign Currency. Ending                                                        (S414.163)      S424.157



Supplemental    Disclosure of Cash Flow Information:

33. Total Interest Paid                                                                  51,671


Suppkmental     Schedule of Financing and Investing Activity:

34. Property and Equipment Acquired Under
    Capital Lease Obligattu~rs                                                               SO

35. Property Acquired Under Long-Term Financing
    Arrangements                                                                             So

36. Other Exchanges ofNon-cash Assets or Liabilities                                  S1.640.769




 The accompanying      notes are an integral part of these statements.




                                                              23
Principal Statements




                       24
                        Footnotes




DEFENSE LOGISTICS AGENCY


 WQRKING CAPITAL FUND


   FOOTNOTES TO THE
     CONSOLIDATED
 PNNCIPAL STATEMENTS
Footnotes

                     DEFENSE WORKING CAPITAL FUND
                             CONSOLIDATED
                   NOTES TO THE PRINCIPAL STATEMENTS
                         AS OF SEPTEMBER 30,1997

Note 1.          Summarv of Sbnificant Accountiue Policies

A.        Basis of Presentation:

         These financial statements have been prepared to report the financial position and results
of operations of the Defense Logistics Agency @LA), as required by the Chief Financial Offtcers
(CFO) Act of 1990. They have been prepared from the accounting records of DLA in accordance
with the hierarchy of accounting standards as prescribed by the Federal Accounting Standards
Advisory Board (FASAB), OMB Bulletin 94-01 and supplemental DOD guidance. The
accounting standards prescribed by the FASAB, in the DOD Accounting Manual (DOD 7220.9-
M) and in the Financial Management Regulation (DOD 7000.14-R) were followed, as
appropriate. To the extent that guidance is not provided by one of these standards, DLA accounts
for transactions in accordance with guidance promulgated by the GAO, OMB, Department of
Treasury, and commercial Generally Accepted Accounting Principles. These statements differ
from the DLA financial reports prepared to monitor and control the use of budgetary resources.
Amounts presented in the financial statements and footnotes are rounded to the nearest thousand
dollars unless otherwise indicated.

B.     Reporting Entity:

        The Defense Logistics Agency (DLA) is a combat support agency responsible for
‘worldwide logistics support throughout the Department of Defense (DOD). The primary focus of
DLA is to provide logistics support to the warfighter. In addition, DLA provides support to relief
efforts during times of national emergency.

        DLA Supply Management Activity Group (Supply) helps carry out this mission by
procuring, managing and supplying over three billion consumable items to Military Departments,
other DOD components, Federal agencies and selected foreign governments. Supply is funded
through the Defense Working Capital Fund (DWCF). The appropriation symbol is 97X4930.%.

        The Distribution Depot Activity Group (Distribution) receives, stores and distributes
commodities, principal end items, and depot level reparables for the Military Departments and
other DoD components, Federal agencies, and selective foreign governments. The current depot
structure encompasses 24 depots and 5 storage locations. All depot sites report directly to the
Defense Distribution Center (DDC) located at New Cumberland, Pennsylvania. Distribution’s




                                                26
                                                                                    Footnotes

mission is fimded through the Defense Working Capital Fund (DWCF). The appropriation
symbol is 97X4930SB.

        The overall mission of the Defense Reutilization and Marketing Service Activity Group
@RMS) is to provide reutilization services to DOD. DRMS accomplishes its mission through
the individual Defense Reutilization and Marketing Offices (DRMOs) located on military
installations throughout the world. DRMOs receive, classify, segregate, demilitarize, account for
and report excess materiel for screening, lotting, merchandising, and sale. They also have the
mission of hazardous property disposal and the economic recovery of precious metals from
excess and surplus precious metal-bearing materiel. The appropriation symbol is 97X4930.5N.

         The Information Services Activity Group was revised to include a Defense Logistics
Agency (DLA) element at the beginning of FY 96. On October 1, 1995, DLA began operation of
its Information Services Activity Group with a single Central Design Activity (CDA), the DLA
System Design Center (DSDC). The Activity Group combines DSDC and the Defense
Automatic Addressing System Center (DAASC) with over 1,100 employees and an operating
budget of $129 million.

        The DLA Systems Design Center (DSDC) serves as a primary provider of integrated
information management support, delivering responsive and innovative solutions to meet DLA
and DoD customers’ needs. DSDC is the DLA CDA operating within the Information Services
Activity Group of the Defense Working Capital Fund. DSDC headquarters are in Columbus,
Ohio, with nine other geographically dispersed satellite sites. These sites, which include Ogden,
Utah and Battle Creek, Michigan, among others, allow for co-location with some of our major
customers. The appropriation symbol is 97X4930.5F50.

        Defense Automated Printing Service Activity Group (DAPS) has direct responsibility for
the DODprinting program and document automation, encompassing value-added conversion,
electronic storage and output, and the distribution of hard copy and digital information. DAPS
manages a worldwide printing, duplicating, document automation, production, and procurement
network.

        On 1 October 1996, Defense Printing Service (DPS) was renamed Defense Automated
Printing Service (DAPS) as it converted from the Navy Defense Business Operations Funds to
the DLA Defense Working Capital Fund. Also in May 1997, Defense Finance and Accounting
Service @FAS) began the implementation of the Defense Working Accounting System
(DWAS). DWAS is the first Commercial OffThe Shelf DoD migratory accounting system.

      The CFO Act requires DAPS, as a business entity under DWCF, to provide audited
financial statements. Due to the difficulties DFAS encountered while implementing the new
system, accounting reports were not available to DAPS at the end of the fiscal year, thus an audit
to confirm the validity of the data reported could not be prepared. The appropriation symbol is
97X4930.56,


                                                27
Footnotes


        The overall mission of the Industrial Plant Equipment Activity Group (IPE) is to repair,
overhaul, rebuild, and modify industrial plant equipment for the Military Services. This Activity
Group also supplies depot maintenance support to the DLA National General Reserves of IPE
and provides on site repair services at DOD industrial activities. This mission is funded through
the mfense Working Capital Fund (DWCF). The appropr;ation symbol is 97X493OSM.
Effective FY 97, this Activity Group was merged with the Supply Management Activity Group.

       The Clothing Factory (Clothing) manufactured clothing and textile items for all DoD
components. Effective September 30,1994, the Clothing factory was closed under the Defense
Base Realignment and Closure Act (BRAC). At that date, all of its operations were
discontinued, except for the Flag and Embroidery function which was transferred to Clothing &
Textiles. DOD policy for the Personal Property Utilization and Disposal Program requires all
installations cited for closure to cooperate with the community in identifying related property that
may be available for civilian use. All residual balances have been researched and closed.
Clothing’s mission was funded through the Defense Business Operations Fund (DBOF) now
known as the Defense Working Capital Fund (DWCF). The appropriation symbol is
97X4930.54.

C.     Budgets and Budgetary Accounting:

         Each Activity Group receives an annual operating budget (AOB) in unit cost terms. Unit
Cost Resourcing provides the operating expense authority/cost authority for such items as
salaries, nonlabor expenses, and materiel within each activity. Cost authority or the amount
“earned” depends on the actual work load times the unit cost goals. Each Activity Group can
also receive reimbursable authority for outputs/goods and services that are not contained in the
unit cost goals. Host support for a tenant is an example.

        Activity Groups may also receive a capital budget that provides the obligation authority
for the purchase of eq.*ipment, minor construction, ADP and telecommunications, and software
development.

D.      Basis of Accounting:

        Transactions are recorded on an accrual basis and on a budgetary basis. Under the
accrual method of accounting, revenues are recognized when earned and expenses are recognized
when incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
compliance with legal constraints and controls over the use of Federal funds.

        “DoD Guidance on Fotm and Content of Financial Statements for FY 97 Financial
Activity” requires that intrafimd transactions be identified and eliminated. However, the Office
of the Secretary of Defense (OSD) has not issued official accounting guidance regarding this
reporting requirement and current accounting systems used to record earnings, expenses,


                                                  28
                                                                                       Footnotes

collections and disbursements have not been designed to identify and retain this information at
the appropriate detail level. Therefore, in order to comply with this requirement, estimated
calculations are provided. Note 29 identifies the eliminations in general terms; however, due to
our inability to capture the necessary financial data, certain schedules are completed in full while
others are incomplete.

E.     Revenues and Other Financing Sources:

        Revenues and financing sources for Supply consist of reimbursements from customers for
sales of inventory and services.

         Revenues and financing sources for Distribution consist of reimbursements f?om Supply
Management for receipt and issue of materiel and reimbursable funding provided by local
activities for non-mission work. Revenues are recognized when earned based on actual workload
for the period. Revenue may be billed up to two months after work is performed. These
financial statements i,nclude an adjustment to accrue for these billings.

        Revenues and financing sources for DRMS consist of proceeds from the sale of property
to the public along with reimbursements from the hazardous disposal and precious metals
recovery programs. Revenue is not earned for the reutilization, transfer, and donation programs.

        Revenues and financing sources for Information Services, DAPS and IPE consist of
reimbursements from customers for services provided. Revenues are recognized when the
service has been performed.

        Revenues and financing sources for Clothing consist of reimbursements from customers
(primarily Supply Management and the Base Realignment and Closure (BRAC) account) for
work performed and services rendered. Revenues are recognized on a percentage of physical
completion basis.

F.      Accounting for Intragovernmental Activities:

         DLA, as an agency of the Federal government, interacts with, and is dependent upon,
other financial activities of the government as a whole. As a result, these financial statements do
not reflect the results of all financial decisions applicable to DLA as though the agency were a
stand-alone entity.

        DLA’s proportionate share of the public debt and related expenses of the Federal
Government are not included in these financial statements because debt and related interest costs
are not apportioned to Federal agencies.

      Also, financing for the construction of DoD facilities is obtained through appropriations
from Congress. To the extent that this financing may have been ultimately obtained through the


                                                  29
Footnotes

issuance of public debt, interest costs have not been capitalized because the Treasury Department
does not allocate interest costs to the benefiting agencies.

G.     Funds with the U.S. Treasury and Cash:

          Generally, Fund Balances with Treasq represent the aggregate amount of an entity’s
accounts with Treasury for which the entity is authorized to make expenditures and pay
liabilities. DWCF Activity Groups account for cash collections and disbursements. Beginning
balances are not allocated to the Activity Groups. As a result, only cash collections,
disbursements, and transfers are presented on the statements of financial position.

        In accordance with guidance issued by OSD, DLA obtains cash receipt and disbursement
information from the finance network/ACRS cash report. This report is not reconciled to the
Statements of Transactions on a timely basis and contains differences from amounts recorded on
the general ledger. Differences between the finance network/ACRS cash report and general
ledger balances are recorded as “undistributed” amounts in Accounts Receivable and Accounts
Payable.

H.     Foreign Currency:

        Gains and losses from foreign currency transactions are not recognized in the statement of
operations. They are absorbed by budgetary transactions in which obligations are increased or
decreased to reflect foreign currency fluctuations. There are no foreign currency translation
adjustments.

I.     Accounts Receivable:

         Accounts receivable are reflected from Federal and non-federal sources. An allowance
for uncollectible accounts has not been established as DLA has generally not experienced
significant uncollectibk amounts.

        Accounts receivable include amounts which represent the differences between collections
on the general ledger and those which have been reported through the finance network/ACRS
cash report. As a result of the transfer of accounting and management responsibilities, DLA has
had limited capability to reconcile these differences.

        Accounts receivable also include numerous over-aged and negative transactions. See Note
3 1 for detail on the amounts of these transactions at year-end.

J.      Loans Receivable:

        DLA Activity Groups do not lend money.




                                                30
                                                                                        Footnotes

K.     Inventories:

         SUPPLY
         Inventories are valued at Latest Acquisition Cost (LAC). The latest acquisition cost
method provides that the last representative invoice price shall be applied to all like units held,
includit,g units acquired through donation, non-monetary exchange, and return from end use or
reutilization. The difference between contract cost (historical cost) and the inventory valued at
LAC is reported as a component of cost of goods sold in the Statement of Operations. Offtcial
accounting guidance requires that this amount be recognized upon the sale or disposal of
materiel, rather than as the price variance occurs. Currently, DLA Supply Management’s
accounting systems are unable to comply with this accounting guidance and the holding gains
and losses are recognized when the price change occurs,

        DISTRIBUTION
        Distribution performs the warehousing function for the DoD; however, it owns no
materiel inventory. Inventory stored in the depots is owned and managed by other Activity
Groups (primarily DLA and the Services’ Supply Management) and by entities outside the
DWCF.

         DRMS
         DRMS does not have inventory. Disposal property is classified and reported as “Other
Entity Assets” in accordance with DOD reporting guidance. This property is not “primarily” held
for sale, and therefore does not meet the definition of inventory for classification purposes.

        INFORMATION SERVICES
        No inventories are maintained.

        DAPS
        Inventories include operating supplies and non-consumable      items. Direct material
inventory is valued at the weighted average method.

      IPE
      IPE repairs, overhauls, rebuilds and modifies industrial plant equipment; however, IPE
owns no materiel inventory.

        CLOTHING
        No inventories remain.

L.      Investments in U.S. Government Securities:

        DLA Activity Groups do not invest in U.S. Government securities.




                                                  31
Footnotes


       Property, Plant

       Equipment is capitalized according to DWCF policy, when the following criteria are met:

       l   Acquisition cost, book value, or when applicable, an estimated fair market value is
           greater than or equal to $15,000 for FY 93, greater than or equal to $25,000 for
           FY 94, greater than or equal to $50,000 for FY 95, greater than or equal to $100,000
           for FY96 and FY97.

       l   Estimated useful life is two years or more.

         Capital assets in DLA, with the exception of DAPS, are input at the detail level into the
Defense Property Accountability System (DPAS). DPAS transmits summarized information to
the Defense Business Management System (DBMS) for financial reporting purposes. Capital
assets are reported at their acquisition cost less any accumulated depreciation. The acquisition
cost includes all the costs necessary to put the asset in place and into the form in which it will be
used. The capital assets for DLA include such items as ADP equipment, materiel handling
equipment, and software.

        The General Accounting Office (GAO) has determined that real property used by any
DWCF activity, but under the jurisdiction of the Military Departments, represents an asset of the
DWCF activity and such property should be reported on the financial statements as an Entity
asset to show the full costs of all resources and assets used in operations. These amounts should
be recorded at acquisition cost, or if unavailable, at fair market value. Documentation to support
the recorded acquisition cost of many older properties is unavailable, and DOD believes it is not
cost effective to obtain fair market value appraisals for many of these properties. These older
properties would in all likelihood be fully depreciated, resulting in no impact to these financial
statements.

        Routine maintenance and repair costs are expensed when incurred. Depreciation for
property and equipment is recorded on a straight-line basis.

N.      Prepaid and Deferred Charges:

       Payments before the receipt of goods and services are recorded as advances at the time of
prepayment. Expenses are recognized when the related goods and services are received.




        DLA is committed to operating leases and rental agreements. Generally, these leases and
agreements are for the rental of equipment, space and operating facilities. Payments under these
operating leases are expensed as incurred.


                                                   32
                                                                                        Footnotes


         Additionally, Supply Management may act as host to tenant activities on certain
installations. These amounts are billed under Interagency Service Agreements and generally
have only included the fees for services provided. Revenue is recognized when the amounts are
received from the tenant activity.

         DLA may also be party (as lesser) to a limited number of leases that meet the criteria of
capital leases. However, DLA’s accounring systems do not allow for the identification of these
arrangements as capital leases. Therefore, payments under these arrangements are not
capitalized, but expensed as incurred.

P.     Contingencies:

        DLA may be party to various legal and administrative claims and actions. In
management’s opinion, the resolution of these actions will not materially affect DLA operations
or financial position. Therefore, no contingent liabilities have been recognized in the Statement
of Financial Position.

Q.     Accrued Leave:

         Civilian annual leave is accrued as earned, and accrued hours are reduced as leave is
taken. Unused annual leave is reported as a funded expense and the liability is reduced as leave
is taken. The balance for accrued leave reflects current pay rates, and each year, the balance in
the accrued annual leave account is adjusted to reflect changes to those rates. Sick leave and
other types of nonvested leave are expensed as taken.

R.     Equity:

        Equity consists of invested capital, capitalization of assets, cumulative results of
operations, fixture fimding requirements, and other equity balances.

S.     Aircraft/Ship Crashes:

       This does not apply to DLA Activity Groups.

T.      Treaties for Use of Foreign Bases:

        DLA has not entered into treaties for the use of foreign bases.




                                                  33
Footnotes

U.        Comparative Data:

        The financial statements present FY 96 and FY 97, with the exception of DAPS, which
is new in FY 97. This comparative data is presented to provide an understanding of changes in
the financial position and operations of the DLA Activity Groups.


Note 2.          Fund Balances with Treasure

k         Business Operations Fund (USD(C)) and All Other Funds and Accounts:

          Not applicable.

B.        Business Operations Fund Activities Below USD(C) Level:

    Entity Assets:


    Beginning Balance                              424,157            806,828
    Transfers of Cash to others                   (629,884)        (1,182,252)
    Transfers of Cash from Others                   93,428            330,824
    Funds Collected                             13,540,83 1        13,580,977
    Funds Disbursed                            (13,842,695)       (13,112.220)
    Ending Balance                                (414,163)           424,157

C.        Business Operations Fund Activities and All Other Funds and Accounts:


    Non-Entity Assets:                  Funds Collected         Funds Disbursed

    Beginning Balance                            174,898                  152,961
    Funds Collected                               s1,414
    Funds Disbursed                                     0                 49.58;
    Ending Balance                               226.3 12                202,550

D.        Other Information:

        Cash collections and disbursements data for the financial statements is obtained from the
Military Services’ Listing and ACRS cash report. These reports are then reconciled to the
general ledger and all differences are recorded as undistributed amounts in accounts receivable
and accounts payable.




                                                34
                                                                                    Footnotes

       Non-entity assets represent amounts included in temporary suspense which are forwarded
to non-DWCF recipients. That balance is stated in Note 2C.

Note 3.          Cash. Foreign Currencv and Other Monetarv Assets

          Not applicable.

Note 4.          Investments

          Not applicable.

Note 5.           Accounts Receivable, Net

                                       (1)              (2)                 (3)        (4)
                                      GFOSS         Allowance           Allowance      Net
                                     Amount        For Estimated         Method       Amount
                                      &            Uncollectible           w           Due
 A. Entity Receivables:
     Intragovernmental                 639,674                            N/A           639,674
     Governmental                      177,792                (9;        Actual         177,70 1
 B. Non-Entity Receivables:
     Intragovernmental                        0                     0     N/A                 0
     Governmental                             0                     0     N/A                 0
 Total                                 8 17,466               (91)        N/A           817,375

C.        Other Information:

         The difference between cash collections in the ACRS cash report and the general ledger is
undistributed. This amount is recorded as an adjustment to accounts receivable.

Note 6.           Other Assets

          Not applicable.

Note 7.           Loans and Loan Guaraatees. Non-Federal Borrowers

          Not applicable.




                                                  35
Footnotes

Note 8.          Inventorv, Net

A.        Inventory Categories:

                                             Inventory      Allowance      Inventory      Valuation
                                              Amount        for Losses        Net          Method
 (1) Held for Current Sale                    9,939,942             0        9,939,942      LAC
 (2) Held in Reserve for Future               1,588,372             0       1,588,372       LAC
       Sale/War Reserve Materiel
 (3)   Excess,Obsolete,&Unserviceable        (1,8 11,944)           0       (1,811,944)    % of LAC
 (4)   Held for Repair    -                      108,438            0          108,438      LAC

                       Total                  9,824,808             0      %9,824,808

B.        Restrictions on Inventory Use, Sale, or Disposition:

        “Held in Reserve for Future Sale” is inventory being held for research or reclassification.
This inventory is held until final disposition and is not available for immediate sale. War
Reserve Materiel are considered restricted, also. These materiel are used in the event of a war or
national emergency.

C.        Other Information:

        1. Inventors Held for Sale - This category of inventory includes most supply system
materiel that is in an issuable condition.

        2. Excess. Obsolete and Unserviceable - This category consists of items that are
determined to be beyond economic and contingency retention stock levels, and as a result,
arereported as potential reutilization/disposal materiel. This category also includes inventory that
is no longer needed due to changes in technology, laws, customs or operations. Unserviceable
items includes items not expected to survive repair after a technical evaluation at a maintenance
activity is performed, and also includes damaged inventory that is not economical to repair.

         3. Inventotv Held For Renair - These are inventory items that are not in an issuable
condition (but are not beyond economical repair) and are awaiting repair before they are eligible
for sale.

Note 9.           Work in Process

          Not applicable.




                                                 36
                                                                                    Footnotes

Note 10.        ODerating Materials and SuDdies (OM&S), Net

 A.     OM&S Categories:                      (1)              (2)           (3)           (4)
                                            OM&S           Allowance        OM&S,       Valuation
                                            Amount         for Losses        &t          Method

 (1)   Held for Use                               18,850                0     18,850      LAC
 (2)   Held in Reserve for Future Sale                 0                0          0
 (3)   Excess, Obsolete, & Unserviceable               0                0          0
 i4j   Held fir Repair                                 0                0           0     LAC
                    Total                         18.850                0     18,850

Note 11.        StockDile Materiel

         Not applicable.

Note 12.         Seized ProDeW

         Not applicable.

Note 13.         Forfeited Prowrtv, Net

         Not applicable.

Note 14.         Goods Held Under Price Support    and Stabilization Prowarns, Net

         Not applicable.




                                              37
Footnotes

Note 15.       ProDertv, Plant and Equiument. Net

                                          (1)              (2)        (3)             (4)           (5)
Classes of Fixed Assets              Depreciation        Service   Acquisition    Accumulated     Net Book
                                      Method*            Life*       Value        Depreciation     Value
A. Land:                                                    _                 0               0              0
B. Structures, Facilities,
   Leasehold Improvements:                SL               20       1,743,308        1,023,82 1     7 19,487
C. Military Equipment:                                                 68,144           44,687       23,457
D. ADP:                                   SL               5           12,422           111575           847
E. Equipment:                             SL               10         75 1,897         302,256      449,641
F. Assets under Capital Lease:                                               0                0            0
G. Other:                                                                  495                0          495
H. Natural Resources:                                                        0                0            0
I. Construction in Progress:                                           78,324                 0      78,324
             Total:                                                 2,654,590        1,382,339     1,272,25 1


       * Key:
        Deoreciation Methods                               Range of Service Life
        SL - Straight Line                                 1-5 - lto5Years
        DD - Double-Declining Balance                      6-10 - 6tolOYears
        SY - Sum of the Years’ Digits                      II-20- 11 to2oyears
        IN - Interest (sinking fund)                       >20 - Over 20 Years
        PR - Production (activity or use method)
        OT - Other (describe)

J.   Other Information:

       Capital assets in DLA, with the exception of DAPS, are input at the detail level into the
Defense Property Accountability System (DPAS). DPAS transmits summarized information to
the Defense Business Management System (DBMS) for financial reporting purposes.

        Distribution is in the process of implementing the Distribution Standard System (DSS)
throughout all of its depots. Through 9130197, the total cost of this system is in excess of $80
million. Distribution is in the process of determining how to implement the guidance contained
in the DoD Financial Management Regulation, establishing the appropriate time DSS was placed
in service and therefore begins depreciating. However, for the FY 97 financial statements, this
amount has not been capitalized.

         Documentation to support the recorded acquisition cost of many older properties is
unavailable. Additionally, DOD believes it is not cost effective in many cases to obtain fair
market value appraisals for many of these properties. These older properties would in all
likelihood be fully depreciated, resulting in no impact to these financial statements.



                                                    38
                                                                                      Footnotes


Note 16.      Debt

       Not applicable.

              Other Liabilities

A. Other Liabilities Covered by Budgetary Resources:

                                                Non-Current         Current
                                                 Liabilities       Liabilities      Total
 1. Intragovernmental
     (a) Reserve for equity for others                         0      135,833        135,833
     (b) Undistributed Cash                                    0     (72,05 1)      (72,05 1)
     Disbursements                                             0       23,762         23,762
     (c) Suspense Account
                    Total                                      0        87,544        87,544

 2. Governmental
     (a) Other                                               0          10,945        10,945
     (b) Deferred Revenue                               56,574               0        56,574
                   Total                                56,574          10,945        67,5 19

B. Other Information:

          “Reserve for equity for others” includes the amounts of cash transferred to Supply by
participating civilian agencies or Military Services.
          “Suspense Account” represents amounts included in temporary suspense which are
forwarded to non-DWCF recipients.
          Governmental “Other” represents a general ledger amount to temporarily classify
liabilities until specific account distribution or liquidation is determined.

C. Other Liabilities Not Covered by Budgetary Resources:

       Not applicable.

D. Otber Information:

        Not applicable.




                                                 39
Footnotes

Note 18.        Leases:

A. Entity as Lessee:

          DLA is committed to operating leases and rental agreements. Generally, these leases and
agreements are for the rental of equipment, space and operating facilities. DLA generally leases
facilities and equipment from year to year under Interservice Support Agreements. Although
these agreements may extend for longer than one year, the majority can be renegotiated, and thus
are not considered noncancelable. Rental expense associated with these agreements is expensed
when paid.

B. Entity as Lessor:

        DLA may act as host to tenant activities on certain installations. Amounts are billed
under Interservice Support Agreements and generally have included only the fees for services
provided.

C. Other Information:

         Not applicable.

Note 19.         Pensions and Other Actuarial Liabilities


                                      Actuarial Present                  Assets
                                          value of        Assumed       Available        Unfunded
      Maior Program Activities           Projected         interest .    to Pay          Actuarial
                                       Plan Benefits         &          Benefits         Liability
      Pension and Health Plans                        0                             0
ii-   ~emc~hnuity       Programs                                  :                 0               x
c:                                                    x           0                 0         191,226
D. Total                                              0           0                 0         191.226


E. Other Information:

         Future workers’ compensation figures are provided by the Department of Labor. The
liability for future workers’ compensation (FWC) benefits includes the expected liability for
death, disability, medical, and miscellaneous costs for approved compensation cases. The
liability is determined using a method that utilizes historical benefit payment patterns related to a
specific incurred period to predict the ultimate payments related to that period. Consistent with
past practice, these projected annual benefit payments have been discounted to present value
using the Offrce of Management and Budget’s, June 10,1997, economic assumptions for IO-year
Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:



                                                 40
                                                                                           Footnotes

                                             1997
                         Year   1                           6.24%
                         Year   2                           5.82%
                         Year   3                           5.60%
                         Year   4                           5.45%
                         Year   5 & thereafter              5.40%

Note 20.        Net Position
                                                    Revolving       Trust       Appropriated
                                                      Funds         Funds          Funds             Total
 A. Unexpended Appropriations:
    (1) Unobligated,                                          0             0                  0              0
    (2) Undelivered Orders                                    0             0                  0              0
 B. Invested Capital:                               20,020,765              0                  0    20,020,765
 C. Cumulative Results of Operations:                (9,759,135)            0                  0     (9,759,135)
 D. Other:                                                    0             0                  0              0
 E. Future Funding Requirements:                       (191,226)            0                  0       (191.226)
 F. Total:                                          10,070,404              0                  0    10.070.404

G.     Other Information:

       See individual Activity Group footnotes for Other Information concerning Net Position.

Note 21.        Taxes

       Not applicable.

Note 22.      Other Revenue and Finauciu?! Sourcg

A. Other Revenues and Financing Sources:                                           gj!YJ         1996
   (1) GLAC 48O-Otl;er                                                           69,528        101,321
   (2) GLAC 560-Other                                                             2,782              0
   (3) Imputed Pension & Other Reitrement Benefits (ORB):
        (a) CSRS/FERS Retirement                                                121,289              0
        (b) FEHB                                                                 51,144              0
        (c) FGLI                                                                    .I54             0
                      Total                                                     244,897        101,321




                                                 41
Footnotes

B.     Other Information:

         Items (1) and (2): Other revenue and financing sources include cash collections which do
not relate to the primary mission of the DLA Activity Groups.

        Item (3): Represents the imputed financing for pensions and other retirement benefits.
The Offtce of Personnel Management (OPM) is the administrative entity for pensions and other
retirement benefits (ORB). OPM accounts for and reports the pension liability in the financial
statements while the employer discloses the imputed financing. OPM actuaries provide the
normal cost rates which are used to calculate the imputed financing.

Note 23.       Program   or ODeratinp Exwnses


 A    Operating Expenses by Object Classification:
      (1) Personal Services and Benefits                             638,449      1,475,156
      (2) Travel and Transportation                                   96,236        546,152
      (3) Rental, Communication and Utilities                         39,73 1        68,997
      (4) Printing and Reproduction                                   12,690         14,972
      (5) Contractual Services                                       936,743      1,395,629
      (6) Supplies and Materials                                      33,066         85,653
      (7) Equipment not Capitalized                                   92,361        100,883
      (8) Grants, Subsidies and Contributions                            203            207
      (9) Insurance Claims and Indemnities                                  0              0
      (10) Others (describe):
                 (a) Interest                                          1,671            679
                 (b) Transportation - Materiel                       292,052        375,529
                 (c) Repair Expense - Materiel                        12,934         17,781
                 (d) Other Expenses                                  378,979        415,705
      (11) Total Expenses by Object Class                          2,535,115      4,497,343

B.     Operating Expenses by Program:

       Not applicable.

C.      Other Information:

        As directed by DFAS Headquarters, operating expenses for FY 97 have been considered
on Line A.2 of Cost of Goods and Services Sold of Note 24, rather than as Gperating Expenses,
as declared in FY 96. The above Operating Expenses for FY97 include only the Supply
Management Activity Group. FY96 Expenses include all Activity Groups, therefore, the data is
not comparable for the two fiscal years.



                                                42
                                                                                       Footnotes

Note 24.       Cost of Goods and Services Sold

 A. Cost of Services Sold:

     (1) Beginning Work-in-Process                                                                   0
     (2) Plus: Operating Expenses                                                         1,455,227
     (3) Minus: Ending Work-in-Process                                                            0
     (4) Minus: Completed Work for Activity Retention                                        (5,194)
     Cost of Services Sold                                                                1,450,033

 B. Cost of Materiel Sold from Inventory:

    (I) Beginning Inventory - L.A.C                                                        9,540,719
    (2) Minus: Beginning Allowance for Unrealized Holding Gains (Losses)                           0
    (3) Plus: Purchases at Cost                                                            8,728,499
    (4) Plus: Customer Returns-Credit Given                                                        0
    (5) Plus: DLR Exchange Credits
    (6) Minus: Inventory Losses Realized                                                    (820,99:)
    (7) Minus: Ending Inventory - L.A.C.                                                  (9,824,808)
    (8) Plus: Ending Allowance for Unrealized Holding Gains (Losses)
    (9) Minus: Equity Transfers of Inventory to Others                                       (25,990s)
    (10) Plus: Equity Transfers of Inventory from Others                                   1,414,077
    (11) Equals: Cost of Goods Sold from Inventory                                         9.011,496

C. Other Information:

        The costs of inventory sold are not specifically identified to the buyer (Government or
Public). However, sales are identified to the buyer, therefore a sales allocation percentage is
applied to the total cost of goods sold to report the costs as Intragovernmental or to the Public.
The sales allocation percentage for the Public sales was approximately 2%.




                                                  43
Footnotes

Note 25.        Other ExDenses

A. Other Expenses:
                                                                          1997              p&
(1) Potential Reutilization                                             98,538           (25 1,883)
19)
    Pzperty Disposal                                                   711,385          1,074,512
iii Loss Due to Shrinkage, Theft                                        11,072                   0
14) Real Property Maintenance
(5) Prior Year Expense Adjustment                                            600           (2,11!)
(6) imputed Pension & Other Reitrement Benefits (ORB):
       (a) CSRSK-ERS Retirement                                        121,289                  0
       (b) FEHB                                                         51,144                  0
       (c) FGLI                                                             154                 0
                  Total                                                993,642           820.5 16

B. Other Information:

        Potential Reutilization Inventory (previously called potential excess inventory) are
inventory items in excess of approved force acquisition objectives and approved force retention
stock objectives. These assets are written down in accordance with current DoD accounting
guidance to a percentage of LAC. The percentage that is applied to these assets depends upon
whether the item is serviceable or unserviceable.

         Item (6), above, represents the imputed expense for pensions and other retirement
benefits. The Office of Personnel Management (OPM) is the administrative entity responsible
for pensions and other retirement benefits (ORB). OPM accounts for and reports the pension
liability in their financial statements while the employer discloses the imputed expenses. OPM
actuaries provide the normal cost rates which are used to calculate the imputed expenses.

Note 26.        Extra,rdinarv    Items

        In FY96, DRMS recorded an expense of $2,500,000 (in whole dollars) to settle litigation
over a prior year sale of ships. This expense is unusual in nature and not expected to recur.

        In FY97, DRMS recorded an expense of $825,000 (in whole dollars) to settle litigation
over a claim regarding the misrepresentation of w;ight and metallurigical content of 535 M551
AR/AAV tanks located at Anniston Army Depot. This expense is unusual in nature and not
expected to recur.
                                                                        Footnotes

Note 27.      Prior Period Adjustments

A.   Prior Period Adjustments:
     (1) Understatement of expenses in FY95 (5B)                   0       (4.877)
     (2) Overstatement of revenues in FY94 (5B)                    0     (30,141)
     (3) Subsistt=,?cc Tr~~;~zition   (5C)                         0     (19,511)
     (4)  Fuels-Congressional   Mandated Refund (5C)               0    (137,600)
     (5) JLSC Transfer (5C)                                        0     (46,720)
     (6) Prior Period Unfunded (5C)                                0     (66,8 11)
     (7) Adjustment to Capitalized Assets (5C)                     0     (82,339)
     (8) Prior Period Expense Adjustment (5M)                       7         (93)
     (9) De-Obligation of expenses from FY92 through FY95           0       12,705
     (10) Overstatement of expenses in FY96 (5B)               1,511             0
     (11) UnfUnded Annual Leave (5C)                        (48,265)             0
     (12) DLA PAC (5C)                                         5,924             0
     (13) Other (5C)                                          73,882             0
     (14) Adjustment to Capitalized Assets (5N)               22,896             0
     (15) Prior Period Expense Adjustment (5N)               (4,117)             0
     (16) Prior Period Expense Adjustment (5N)                 (446)             0
     (17) Prior Period Expense Adjustment (5N)               (6,033)             0
     (18) DLA PAC Transfer Adjustment (5N)                       (12)            0
     (19) Overstatement of expenses in FY96 (5B)              33,044             0
                    Total                                     78,39 1   (375,389)




                                           45
Footnotes

Note 28.            Non-Onerating Cbaupes (Transfers and Donations1

A    Increases:                                                                     1997               1996
     (1) Transfers-In:
          (a) Cash                                                             1,428,653         I,8 18,862
          (b) Equipment                                                          126,232            79,010
          (c) Disposal Property                                                   40,256                  0
     (2) Donations Received                                                      263,988            35,136
     (3) Other Increases - cash and consumable item transfers                  1,432,806         1,285,766
     (4) Total Increases                                                       3,291,935         3,2 18,774
B. Decreases:
   (1) Transfers-Out:
        (a) Cash                                                               1,908,909         2,660,450
        (b) Equipment                                                            115,222            10,593
        (c) Disposal Property                                                      2,267              3,574
   (2) Donations                                                                        0                 0
   (3) Other Decreases                                                           214,101             12,262
   (4) Total Decreases                                                         2,240,499         2.686,879
C. Net Non-Operating Changes (Transfers):                                      1,05 1,436          53 1.895

D.      Other Information

        Not applicable.

Note 29.            Intrafund Eliminations

Schedule A:                                  Not apblicable.

Schedule B:
Selling Activity:                              Column A         Column B       Column C         Column D

                                               Accounts                        Unearned
                                              *Receivable       Revenue        Revenue          ‘Collections

DLA. Distribution Depots                              54,454       590,924                  0           599,575
D& Supply Management,Materiel                         42,730        33.032,’                0            32,476
Dvl Supply ManagementOperations                      127,639       236,996*                 0           165,843
DLA, Information Services                             23,347        94,429                  0            90,665
DLA. Industrial Piant 8 Equipment                        (55)        (238)                  0             (223)
DLA, Reutilization & Marketing                         6,167        13,265                  0            11,878
                                                     254,282       968,408                  0           900214




                                                      46
                                                                                          Footnotes


Customer Activity:                       Column A         Column B       Column C          Column D

                                          Accounts
                                          ‘Payable         Expenses      Advances        ‘Disbursements

lntra DLA Support                              27,627          57,470               0              55,148
DIA Between DLA                                84,399         277,374               0             234,786
DtA Precious Metals (DPDS)                      1,765           6.204               0               7,249
lntra DIA (Stk Fnd or lndus Fnd)              140,490         627,360               0             603.031
TOTAL                                         254.281         968,408               0             900214


Schedule C:
Selling Activity:                    Column A           Column B        Column C          Column D

                                      Accounts                          Unearned
                                     lReceivable        Revenue         Revenue          *Collections

DLA, Distribution Depots                   61,656           669,593                 0          679,407
DLA Supply ManagementMateriel             370,123        10,668,302                 0       10.686.117
DLA, Supply                               134,249           266,569                 0          220.942
ManagementOperations
DLA, Information Services                    7,909           32,449                0             31.133
Defense Automated Printing Service                0         210,864                0            210,864
DtA, Industrial Plant 8 Equipment            1281             5,434                0              5,088
DIA, Reutilization 8 Marketing              50.682           72,852          56,573              89,520
                                           625,900       11,926X%3           56,573          11,923,071
Customer Activity:                   Column A           Column B        Column C          Column D

                                      Accounts
                                      ‘Payable          Expenses        Advances        ‘Disbursements

Department of the Army                     159,098        2,554,330                0          2548,225
Department of the Navy                     169,270        4,125,319          56,573           4,133.703
Department of the Air Force                150,909        4,494,052                0          4,476204
ArmyWF                                            0             474                0                474
Navy \M=F                                         0          20,286                0             20.286
Air Force VKZF                                    0              996               0                 996
DFAS WF                                           0           8,760                0              8,760
U.S. Army Corps of Engineers                 4,716            8,980                0              6,836
Other Defense Organizations                141,907          712.866                0            727,587
TOTAL                                      625,900       11,926,063          56,573          11.923,071




                                                   47
Footnotes


Schedule D:
Selling Activity:                    Column A         Column B      Column C         Column D

                                      Accounts                      Unearned
                                     *Receivable      Revenue       Revenue         ‘Collections

DLA, Distribution Depots                      201             15           0                    627
DLA, Supply ManagementJulateriel           75,287        146,149           0                147,062
DlA, Supply ManagemerkOperations            3,096          3,415           0                  4,935
DlA, Information Services                   (3,271)             5          0                    (309)
Defense Automated Printing Service                0       13.700           0                 13,700.’
DLA, Industrial Plant 8 Equipment            1.132           341           0                     826
DLA. Reutiiiiation & Marketing               1,302           648           0                  1,577
                                           77,747        164.273           0                168.418


Customer Activity:                   Column A         Column B      Column C         Column D

                                      Accounts
                                      ‘Pavable        Exoenses      Advances       ‘Disbursements

General Services Administration             3.509          5.913                              7,060
Agriculture                                35,491         23,746                             21,863
Interior                                    5,781          2,255                                992
NASA                                        4,339         17,622                             17.549
State                                         331            349                                525
Transportation                              2,380         10,034                              9,996
Treasury                                      335          1,698                              1,741
Veterans Afairs                             2,835          4,112                              4,265
All Other Government Agencies              22,746         98,544               0            104,427
TOTAL                                      77,747        164,273               0            168,418




Note 30.            Contiwencies

         Not Applicable.




                                            48
                                                                        Footnotes

Note 31.       Other Disclosures

     UNMATCHED DISBURSEMENTS, NEGATIVE UNLIQUIDATED
OBLIGATIONS, AND AGED IN-TRANSIT DISBURSEMENTS

Treasurv Index 97 Amromiations      Sept 1996   Sept 1997   %Change     % Change

Unmatched Disbursements               174,275     165,837     (8,438)        (5%)
Negative Unliquidated Obligations       7,748      21,654      13,906       179%
Aged In-Transit Disbursements         261,643     310,187     48,544         19%
                 Totals               443,666     497,678      54,012        12%




                                      49
Footnotes




            50
                   INspEcToR GENERAL
                   ouwuruEruToF-
                     ~OrYMVNAVYDRM
                   ARLNmotu.-22202




                                          February   27,   I998

MEMOIUNDUMFOR UNDERSX!RETARY OF DEFENSE(COhWI=OL=R)
                ANDCHXEPFlNANCXALOFFKER
              DlRECI’OR,DEFENSEUGEYIICS AGENCY’
2
                                                                      3


       UndatheFddaalFm                            tActaf1996andOMB
BtdlethNo.93-06, Ad&nduml,‘~~~Fmrndrl
Sta~u,”     hwary 16,1998, auf work disclod that Wnci@ tmmganw systems
didnotcolnply~Fadmlfinaacinlmtpagemcrptsysccm~;appliabIe
FcdcmlaeEolmtings~~indtbeUmtrdStatcsGov          almalt standard Galaal
Lcdgaatttbe             .
Appendix D. Management and Legal
Representation Letters

This appendix (a total of 5 pages) consists of the management and legal
representation letters for the FY 1997 Financial Statements of the Defense
Logistics Agency Working Capital Fund.




                                   31
                               DEFENSE         LOGISTICS          AGENCY
                                           HEADQUARTERS
                           8725    JOHN   J. KINGMAN   ROAD,       SUITE   2533
                                  FE BEWOIR,    VlRGlNlA   22-l



ho FOX
                                                                              MAR 2 1 1998
   MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDITING, DOD

   SUBJECT: Management Representation Letter for the DLA Defense Working Capital
            Fund @WCF) FY 1997 Financial Statements


      For the purpose of expressing an opinion on whether the FY 1997 DLA DWCF financial
   statements are presented fairly and in accordance with generally accepted accounting principles
   and Office of Management and Budget (OMB) Bulletin 9441, “Form and Content of Agency
   Financial Statements,” November 16,1993, I co&m, to the best of my knowledge and belief, the
   following representations:

          o I am responsible for the fbir presentation of the DLA DWCF financial statements in
            accordance with generally accepted accounting principles and OMB Bulletin 94-01.

          o I have made available to you all financial records and related data

          0 I have no plans or intentions, other than any of those previously disclosed to you, that
            may materially a@ct the carry& value or classification of assets and liabilities.

          o I have no knowledge of irregularities involving management or employees who have
            significant roles in the internal control stmctum that are not a matter of public record

           o I have no knowledge of other employees being involved in irregularities that could
             materially affect the finaucial statements that are not a matter of public record.

           o I have not received communications f&m reguktory agencies or auditors concerning
             noncompliance with, or deficiencies in, financial reporting practices that could have a
             material effect on the financial statements that are not a matter of public record.

           o Related third-party transactions and related amounti receivable or payable of inkrested
             participants, including assessments, loans, and guzantees, are not applicable.

           o I have no knowledge of violations or possible violations of laws or regulations whose
             effects should be considered for disclosure in the financial statements or as a basis for
             recording a loss contingency that are not a matter of public record.
                                                                                                   2


0       There arc no other material liabilities or gain or loss contingencies that arc required to be
        accrued or disclosed by Financial Accounting Standards Board Statement No. 5,
        “Accounting for, Contingencies,” March 1975.

0       There areno unasserted claims or assessments that our legal representatives have
        advised us are probable of assertion and must be disclosed in accordance with Financial
        Accounting Standards Board Statement No. 5.

0       I have no knowledge of material transactions that have not been properly recorded in the
        accounting records underlying the financial statements that arc not a matter of public
        ECOrd.


0        Provisions, for material amounts, have been made to reduce excess or obsolete
         inventories to their e&mated net real&able value.

0        To my knowledge, the Federal Government has satisfactory title to all reported assets,
         and there are no liens or encumbrances on such assets, nor has any asset been pledged as
         collateral.

    0    Provision has been made for any material loss to be sustained as a result of purchase
         commitments for inventory quantities in excess of normal requirements or at prices in
         excess of normal requirements or at prices in excess of the prevailing market prices.

    0    I have no knowledge of noncompliance with alI aspects of contmctual agreements that
         would have a material effect on the financial statements in the event of noncompliance.

        o I have no knowledge of events that have occurred after the balance sheet date that
          would require adjustment to or disclosure in the financial statements that have not been
          previously identified on the statements.



                                                                3   .


                                                      HENRY T. GLISSON
                                                      Lieutenant General, USA
                                                      Director



                                                       LINDA  J. FURIGA-      -
                                                       Comptroller
                                             DEFENSE        LOGISTICS       AGENCY
                                                     HEADQUARTERS
                                          8725 JOHN J. KINGMAN ROAD, SUITE 2533
                                              FT. BELVOIR, VIRGINIA 22-l

I REPLY
  REFER TO       m                                                             March 1,1998


                 MEMORANDUM FOR ASSISTANT INSPECTOR @NERAL FOR AUDITING
                                  OFFICE OF THE INSPECT& &kERAL,
                                  DEPARTMENT OF DEFENSE

                 SUBJECT: De&me Lqistics Agency Working Capital Fund for FY 1997

                         As General Counsel of the Defense Logistics Agency, I am responding to the annual
                 requirement for a legal representation in connection with your examination of the Defense
                 Logistics Agency Working Capital Fund (WCF) concerning matters that existed for Fy 1997.
                 The attached cases reported represent all pending or threatened litigation, claims, assessments, or
                 probable claims of $100 million or more and could effect the WCF.

                        The General Counsel of the Defense Logistics Agency has general supervision of the
                 Agency’s legal afB3irs,inchtdin g th ose involving the Working Capital Fund. In such capacity I
                 have reviewed litigation and claims threatened or asserted involving the WCF.

                         Subject to the foregoing and to the last paragraph of this memorandum, I advise you that
                 in FY 1997, neither I, nor any of my lawyers over whom I exercise general legal supervision, have
                 given substantive attention to, or represented, the Working Capital Fund in connection with
                 material loss contingencies coming within the scope of clause (a) of Paragraph 5 of the Statement
                 of Policy referred to in the last paragraph of this letter, except as indicated in the attachment to
                 this memorandum.

                         The information set forth herein is as of the date of this memorandum and covers matters
                 that existed in FY 1997 and to the date of this memorandum.

                         I con&m, that in the course of performing legal services for DLA, I have advised the
                 Comptroller, DLA of all unasxxted possible claims or assessments which, in my professional
                 judgement, should be disclosed or considered for potential disclosure on our financial statements
                 in accordance with Statement of Federal Fiicial   Accounting Standard (SFFAS) No. 5
                 “Accounting for Contingencies,” December 1995.

                         This response is limited by, and in accordance with, the ABA Statement of Policy
             .   Regarding Lawyed Responses to Auditors Requests for Information (December 1975). Without
                 limiting the generality of the foregoing, the limitations set forth in such Statement on the scope
                 and use of this response (Paragraphs 2 and 7) are specifically incorporated herein by reference,
                 and any description herein of any “loss contingencies” is qualified, in its emirety by Paragraph 5 of
                 the Statement and the accompanying Commentary (which is an integral part of the Statement).
                 Consistent with the last sentence of Paragraph 6 of the American Bar Association Statement of
Policy, this will confirm as correct the Agency’s understanding that whenever, in the course of
peflorming legal services for the Agency with respect to a matter recognized to involve an
unasxrted possible claim or assessment that may call for Gnancial statement disclosure, I have
formed a professional conclusion that the Agency must disclose, or consider disclosure,
concerning such possible claim or assessment, I, or one of the lawyers over whom I exercise
general legal supervision, as a matter of professional responsibiity to the Agency, will so advise
the Agency and will consult with the Agency’s managers concerning the question of such
disclosure and the applicable requirement of Statement of Financial Accounting Standards No. 5.




                                             BRUCE W. BAIRD
                                             General Counsel

Attachments

cc: Comptroller, DLA
ATTACHMENT: CASE 1

        The EROS appeals before the Armed Services Board of Contract Appeals, ASBCA Nos.
48355 and 48367 continue to represent a claim of approximately $263.9 million for a breach of
                                                  .
contract, The current status of the case is summarized below:

        a. This is a breach of contract and improper use of proprietary data claim based on a
termination for the convenience of the Government of Contract SP44 10-94-R- 100 1 in July 1994.
The contract, awarded June 8,1994, involved the scrapping and consi~ent         resale of parts and
metal from B-52 aircraft at the Davis-Monthan APB, Tucson, AZ.

        b. Discovery in this case is now active, as the closing date for discovery is May 1,1998,
with a hearing date of July 28-29, 1998. DRMS believes the chance for significant liability in this
case is small. In addition, the Board found in its summary judgment decision that the amount
guaranteed under the unique pricing formula of this contract was approximately $1.1 million ( an
amount with which Appellant disagrees).

        c. Attorneys f?om DRMS-G, Battle Creek, MI are handling the litigation. No settlement
of the matter is ixrently bemg pursued.
Appendix E. Laws and Regulations Reviewed
   Public Law 104-208, “Federal Financial Management Improvement Act of 1996,”
   October 1,1996

   Public Law 103-356, “Government Management Reform Act of 1994,”
   October 13, 1994 (may be cited as the “Federal Financial Management Act of 1994”)

   Public Law 101-576, “Chief Financial Officers Act of 1990,” November 15, 1990

   Public Law 97-255, “Federal’Managers’ Financial Integrity Act of 1982,”
   September 8, 1982

   OMB Bulletin No. 98-04, “Addendum to OMB Bulletin No. 93-06,” January 16, 1998

   OMB Bulletin No. 97-01, “Form and Content of Agency Financial Statements,”
   October 16, 1996

   OMB Bulletin No. 94-01, “Form and Content of Agency Financial Statements,”
   November 16, 1993

   OMB Bulletin No. 93-06, “Audit Requirements for Federal Financial Statements, *
   January 8,1993

   OMB Circular No. A-127, “Financial Management Systems,” as revised
   July 23, 1993

   OMB Circular No. A-134, “Financial Accounting Principles and Standards,”
   May 20, 1993

   Statement of Federal Financial Accounting Staudards No. 3, “Accounting for
   Inventory and Related Property,” October 27, 1993

   Joint Financial Management Improvement Program “Core Financial System
   Requirements,” September 1995 (part of the “Federal Financial Management
   System Requirements”)

   DOD 7000.14-R, “DOD Financial Management Regulation,” volume 6, “Reporting
   Policy and Procedures, n February 1996

   DOD 7000.14-R, “DOD Financial Management Regulation, n volume 1 lB,
   “Reimbursable Operations, Policy and Procedures - Defense Business Operations
   Fund,” December 1994

   DOD 7000.14-R, “DOD Financial Management Regulation, n volume 1, “General
   Financial Management Information, Systems, and Requirements, “_May 1993

   DOD Directive 5010.38, “Management Control Program,” August 26, 1996


                                           33
Appendix F. Report Distribution


Of&e of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Deputy Under Secretary of Defense (Acquisition Reform)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency




                                         35
Appendix F. Report Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                           36
       Audit Team Members

This report was prepared by the Fiice and Accounting Directorate, Office of the
Assistant Inspector General for Auditing, DOD.

       F. Jay Lane
       Salvatore D. Guli
       James L. Kornides
       Tim F. Soltis
       Kevin C. Currier
       Barry N. Harle
       Scott K. Miller
       M. Terry Rohr
       Brian L. Henry
       Tony C. Hans
       Karen M. Bennett
       Susanne B. Allen
